<html>
<title> - HEARING ON COMMITTEE FUNDING FOR THE 111TH CONGRESS (CONT'D)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      HEARING ON COMMITTEE FUNDING FOR THE 111TH CONGRESS (CONT'D) 

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

               HELD IN WASHINGTON, DC, FEBRUARY 25, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                   Committee on House Administration

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 
51-249 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 












                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


          HEARING ON COMMITTEE FUNDING FOR THE 111TH CONGRESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of California, Lungren, McCarthy, and Harper.
    Staff Present: Charles Howell, Chief Counsel; Jamie Fleet, 
Deputy Staff Director; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Gregory Abbott, Policy 
Analyst; Brian McCue, Professional Staff; Matthew DeFreitas, 
Staff Assistant; Victor Arnold-Bik, Minority Staff Director; 
George Hadijiski, Minority Professional Staff; Bryan T. Dorsey, 
Minority Professional Staff.
    The Chairman. The quorum being present, I call the 
Committee on House Administration to order. And the Committee 
on House Administration--as you know, has a tradition where the 
chairpersons and ranking members of our committees come before 
the committee to discuss their funding and oversight priorities 
for each Congress. Out of respect and appreciation for the 
Chairs and ranking members participating, I am asking each 
Chair and ranking member to limit their statements to 5 minutes 
and for our committee members to be mindful of the schedule 
when asking their questions. Whatever information we do not 
have time to collect today, I am certain our staff can work 
with the various committees to get it from them in a timely 
fashion.
    I would like to recognize our friend and ranking member, 
Mr. Lungren, for any opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I want 
to thank you for the cordial relationship you have established 
in this committee with your staff and your staff with our 
staff. And while there are many areas that majority and 
minority members sometimes disagree on, we have for the last 
several years enjoyed a relatively bipartisan approach in this 
committee. At least two-thirds or three-quarters of what we do, 
it seems to me, is essentially bipartisan, and I hope that we 
can continue that tradition. Many of our chairmen and ranking 
members have established standing precedents about the 
operating practices within their respective committees and 
their function for many years according to those principle. 
Even though it may have new chairpersons and ranking members 
before us, I am sure they want to follow in that same spirit. I 
want to ensure that the understanding that has prevailed over 
the last number of Congresses, both Democrat and Republican, 
continues, which is an equitable division of funding which has 
by precedent been established as the two-thirds/one-third rule 
with committees, and that is something that we have followed 
all the way through. I was pleased with the chairman's response 
that we will continue to do that as our effort here today, and 
I hope that we can move forward expeditiously.
    I thank you very much, Mr. Chairman.
    The Chairman. You are welcome. Anybody else have any 
opening statements they would like to make? Hearing none, I 
thank you again and welcome our own Vice Chair, and newly 
appointed Chair of the Ethics Committee, the gentlelady from 
California, Ms. Lofgren, and her ranking member, Mr. Bonner, 
from Alabama for opening statements. The floor is yours.

STATEMENT OF THE HON. ZOE LOFGREN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lofgren. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be before you today as the new 
chairperson of the Committee on Standards of Official Conduct. 
Mr. Bonner and I have served as Chair and ranking member of 
this committee for, what, a couple of weeks now, Jo. So we are 
just beginning. And we believe that the committee, commonly 
known as the Ethics Committee, is an integral part of our 
institution.
    As the full name implies, our job is to uphold the 
standards of the House, and we believe that the budget we have 
put before you will allow us to accomplish the upholding of the 
standards of the House.
    Historically the committee has really had two roles. First 
is an advisory and educational role for our Members and staff 
and, second, an investigatory role or enforcement role when 
violations appear.
    Now, we have historically produced a huge amount of work on 
traditionally modest resources. We have a new obligation since 
2000 to provide mandatory annual ethics training for every 
officer and employee of the House of Representatives, including 
staff in district offices. That is over 10,000 employees and 
you can imagine that that is a substantial body of work that 
falls to the committee.
    In addition, in March of 2008, the House voted to establish 
the Office of Congressional Ethics. That office has the 
authority to make referrals of alleged unethical conduct by 
House Members and staff to the committee for further inquiry 
and disposition. Obviously that is also going to expand the 
workload of the committee and its members.
    The budget before you reflects the expansion of 
responsibility that has been added to the committee. We have 
requested a budget increase from the 110th Congress from 4.9 
million to 5.7. This is an increase of 7.4 percent in 2009 and 
8.6 percent in 2010. With regard to the staffing, we were 
granted additional positions in the 110th, but they are vacant. 
So we, Mr. Bonner and I, are on a mission to staff up--I mean, 
I have heard from many Members that they can't get their 
letters answered and there is a reason, because we need--the 
staff is working very hard, but they are very short staffed, 
and so we need to change that.
    The other thing that we hope to do is to increase the 
technology within the office. Much of the things that are--the 
approval, for example, of travel, preapproval of travel, which 
is a new responsibility of the committee is paper based. So 
there is--whole forests have fallen before this obligation. We 
hope to streamline that and have as much transparency as we do 
now, maybe more, but also to make it less burdensome not only 
for the committee but for every Member of the House that wants 
to comply with the requirement, but to do so in a very 
efficient way. So that is something that Mr. Bonner and I will 
be working on with the staff.
    The other obligations that the committee has is to respond 
to telephone inquiries seeking guidance from Members on rules 
and standards, to draft responses to written requests for 
advisory opinions, to provide, as I mentioned before, ethics 
training, to draft advisory memoranda of general application 
called pink sheets that are distributed to all the Members and 
staff, and of course to review and approve over 2,000 financial 
disclosure statements by Members and officers and covered 
staff, which is an enormous undertaking as I am sure you can 
imagine.
    I would ask unanimous consent that my entire statement be 
added to the record. But we do look forward to establishing our 
new working relationship with the outside ethics office that is 
really starting from scratch, and it is important that we set 
that up in a way that works well and is transparent and upholds 
the highest standards of the House of Representatives because 
really what we do on the committee and with the Members of the 
House is so important so that the public can have confidence 
that the people's House is living up to the highest rules 
possible. And that if we disagree, it is on the basis of 
principle, that we would never doubt that we are doing the best 
we can to deliver the best possible legislative product for 
America as we see fit, with no insinuation of other elements in 
the consideration. So we believe the budget we submitted is 
necessary.
    In answer to the one-third/two-third question, we don't do 
that. This is the only committee in the House that is evenly 
split. The staff is appointed jointly by the Chair and ranking 
member with the exception of one counsel that each of us can 
appoint for assistance. So we have done that and we are in the 
process of doing that now.
    And I will turn to my cohort here, Mr. Bonner, who can 
further elaborate, but I think from my perspective, that has 
worked very well and I expect it will continue to work well. 
And I thank you, Mr. Chairman.
    [The statement of Ms. Lofgren follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. And without objection, we are 
going to put your request in by unanimous consent.
    Yes, sir.

 STATEMENT OF THE HON. JO BONNER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ALABAMA

    Mr. Bonner. Mr. Chairman, Mr. Ranking Member, and other 
distinguished members of the committee, thank you very much for 
the opportunity to be here to speak about the Ethics 
Committee's budget request for the 111th Congress. I am 
privileged to serve as the Ranking Member of the Committee on 
Standards of Official Conduct with Chairwoman Zoe Lofgren, and 
our distinguished colleagues from all across the country.
    The purpose and work of this committee, as you know, is 
very important. It includes helping to educate and advise 
Members and their staff of the House about their ethical 
responsibilities and to enforce violations of the rules of the 
House fairly and consistently. We share a commitment to 
carrying out these responsibilities to preserve the integrity 
of the House and to increase American citizens' confidence that 
their elected representatives, regardless of their partisan 
affiliation or position, are abiding by the highest ethical 
standards.
    Ethics has become a popular topic recently. In that regard, 
our committee must be given the tools necessary to accomplish 
many critical tasks. This budget will support the committee in 
providing professional advice to all Members and their staff 
about a myriad of complex ethical issues involving gifts, 
privately sponsored travel, and public disclosure of finances. 
It will aid in our ability to increase and improve upon 
training for thousands of House staff located in Washington, 
D.C. As well as in district offices throughout the country, and 
it will help ensure that unethical conduct is promptly and 
impartially addressed.
    I note that the House Administration Committee's actual 
funding in the previous Congress for the Ethics Committee was 
significantly below the budget request sought by the Chair and 
Ranking Member at the time, and I hope that is not the case in 
this Congress.
    I look forward to working with you and my chairwoman to 
achieve a budget that will help achieve our goals as we respect 
and protect the institution that the American people look to 
and know as the United States Congress. I thank you, Mr. 
Chairman.
    [The statement of Mr. Bonner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. And thank you for your service and 
your time in appearing before us here. Any questions from Mr. 
Lungren, the ranking member?
    Mr. Lungren. Yeah, just a couple. And we are going to be 
limited by the total amount that the Appropriations Committee 
is ultimately going to give us. And if we add everything up 
that people have requested here, we are probably not going to 
fall within that range. So we are probably going to have to 
trim here and there.
    In the past there have been substantial increases for the 
Standards Committee, even though it may have been below what 
was requested, and the argument at that time was there were 
additional duties, additional rules that had been established. 
They had to figure out what those rules meant as they were 
applied, and so forth.
    And just this question and that would be since that is past 
you, some would say why do you need additional funds, and I 
would just like you for the record to just give us an idea of 
why?
    Ms. Lofgren. Well, as I mentioned in my opening statement, 
the new outside office is brand new. They just met for the 
first time a few weeks ago. That is a whole new additional 
burden that we need to work with them. We need to staff up to 
deal with that, adopt procedures to do that, and we don't know 
of course whether the volume of referrals will be high or low. 
But we need to be prepared.
    Mr. Lungren. So the staff costs of their staff are included 
in this request?
    Ms. Lofgren. No, no. But our staff--they will review and 
then they refer. So we need to have--it is a matching system on 
our side.
    Additionally, the burden of preapproving travel is--I mean, 
this is an enormous job. There is a lot of travel undertaken by 
Members, and I think having the preapproval is really a good 
idea. It has allowed the public and the Members to know that 
there is nothing wrong with the private sponsors. The staff 
reviews the private sponsors to make sure that there are no 
lobbyist influences so that--I think Member travel is 
important. You learn things when you go around and see with 
your own eyes. But the amount of staff time involved in that is 
huge. And I will add also Mr. Bonner and I are spending an 
enormous amount of time going through the approvals. So we have 
got to get that right. And it is not just in the committee's 
interest but every single Member of the House needs to make 
sure we have properly done that function and in a timely way as 
well. Would you have anything to add, Jo?
    Mr. Bonner. Mr. Lungren, I would say I certainly agree that 
we are asking the American people to make sacrifices, and so we 
have to be careful of the example we set here in Congress. So 
you say that is a contradiction to ask for an increase in 
funding.
    Let me give you an example of what happened to me in 
December. I was trying to access the House Ethics Committee web 
page to do a continuing education training class that I wanted 
to complete before I assumed the position as Ranking Member of 
the committee. And even though the Web page was updated in 
previous years, I was not able to access that because I was not 
on a House computer. I was doing it from home.
    Technology is our friend, and there are ways that 
technology can actually save money, and I think that the 
request that we have made is for capital investment in people 
to bring our staff levels up to where we can respond to Members 
and their staff in a more timely fashion and also where we can 
in the era of transparency make sure that the American people 
see what it is that we are doing to try to uphold the integrity 
of the House of Representatives.
    So it is a great question. It is certainly one we are 
sensitive to. But I think the chairwoman is right, what we are 
trying to do is to make sure we are ready to adjust not only to 
the new responsibilities that come with this outside group that 
was enacted in the 110th Congress, but to other challenges of 
Members and their staffs. We don't want a single Member to have 
to come before us because they committed a violation that we 
could perhaps with education and advice have helped them avoid.
    Mr. Lungren. I thank you. Just for the record, I want to 
say that my office and I have benefited from the 
professionalism of the staff that you have. We have added a 
large number of new rules with obligations both on the Members 
and on your committee. And if we are going to make it work for 
the American people, we have to be able to have that properly 
staffed, and I appreciate your request and I appreciate your 
educated defense of that request.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Just a 
question quickly to the Chair and to the ranking member. Any 
reason to believe that the request from Members regarding 
either an opinion or an approval will diminish or reduce in 
number in the coming months? My suspicion is that it is going 
to increase. I don't think we do anything now--and it is good. 
The scrutiny is intense, as it should be, but we seek guidance. 
We don't do anything in my office now without checking with 
Ethics. We still say check with Ethics. It is Standards.
    But still, any reason to believe your workload is actually 
going to decrease?
    Ms. Lofgren. I think that is an excellent question, and my 
guess is it is going to continue to increase. We talk to our 
colleagues and one of the things that all the members of the 
committee have pledged to do is not to give ethical advice on 
the floor to our colleagues and make a mistake. We need to have 
the staff review it and make sure it is in an orderly way. But 
we do note that people want to make sure that they are 
following the rules. The rules have grown increasingly complex 
and people are seeking guidance. They don't want to make an 
error.
    So I think it is a very good question. I expect continuing 
increases in request for guidance. And that is a good thing. 
Because when we get that guidance, then people can comply with 
it and mistakes will not be made. So I think we are moving in 
the right direction.
    Mr. Bonner. Mr. Gonzalez, I would just say one of the other 
rule changes that occurred in the previous Congress which has 
added additional responsibility to this committee is the change 
that we made whereby if a Member is involved in a matter 
subject to the jurisdiction of that local community or State 
rises above the level of a parking ticket, then we 
automatically have a responsibility to review that and to 
report back within 30 days. We had several Members on both 
sides of the aisle last year that in previous Congresses the 
matter would have been treated as an incidental incident and 
would not have come before the committee, taking up staff time 
and Member time but did. Those are just the new rules that we 
live by in an effort to try to uphold the highest standards.
    So unfortunately, as much as we could hope that the work 
would diminish, I think the Chair and I are in complete 
agreement that we hope we never see a colleague or a member of 
the staff come before us because they have done something 
wrong. But I think it is our responsibility to do all we can to 
help lay a clear paper trail and a clear process to make sure 
that Members are making good decisions and realize the 
consequences that come along with a bad decision, even though 
it may have nothing to do with their official responsibility as 
a Member of Congress. It may be off campus and after hours, it 
nevertheless can come to our attention and will, with the time 
clock starting as soon as it does.
    Mr. Gonzalez. Thank you very much. I yield back, Mr. 
Chairman.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. I appreciate the presentation and I 
understand what Standards said. We make these new rules and 
sometimes people have been here longer, so they have to be 
educated. So I think it is a continual thing you will have to 
do, especially with this new ethics office.
    I know your request is for two-years and we meet one time. 
I was just thinking--I guess this would be up to the chairman 
and to yourself--knowing where we are limited and we should be 
limited, making sure every dollar is spent wisely, and not 
knowing that you are walking in with this new outside world of 
ethics, would it be appropriate that the committees come back 
after the first year because everybody--we won't be able to 
fulfill everybody's needs, and knowing that you are going into 
a changing world? I am one that believes in technology, but the 
one thing that comes with technology as well is a whole new 
standard because you want to communicate with your constituents 
as much as possible and technology changes every day. But we 
have got to make sure we are meeting the criteria of Congress 
and not mixing anything different.
    Would it be appropriate if a decision is made with coming 
back after a year to evaluate, knowing the limited dollar 
figures for the next year as well? How would you feel about 
that?
    Ms. Lofgren. Well, obviously I would defer to the chairman 
and ranking member of the House Administration Committee on 
whether they wish to have that kind of process. If they do, I 
would be happy to comply.
    The Chairman. I certainly wouldn't mind if we have the 
money to be able to give to you. I don't know where that is. We 
would have to talk to our appropriators. But I would certainly 
not mind entertaining any requests after a year that you have 
to come back and get some more funding.
    Mr. McCarthy. The only thing I was thinking, Mr. Chairman, 
is that we can't fulfill everybody's needs, and rightfully so. 
But it gives a little greater accountability. Plus with the 
changing world therein, there may be something different that--
--
    The Chairman. I understand and appreciate that. I have no 
problem doing that.
    Ms. Lofgren. If I could just on the point--we referred to 
it, but didn't directly address it, I have a very strong 
interest in--and I think the ranking member shares this 
interest--in updating our technology. That will help not only 
the House Administration Committee, but it will help every 
office on the Hill. It would be more efficient, for every 
single office will save money if we are successful in bringing 
technology in and streamlining some of these processes. So that 
is the major goal that we have.
    Mr. Bonner. Mr. McCarthy, I would just add that while the 
Chairwoman had a previous tour of duty on this committee and I 
served in the previous Congress on this committee, this is, in 
fact, the first time that she and I have had an opportunity to 
work together and in the few weeks that we have had this 
opportunity, usually citing literally forests of paper that 
have been processed to make sure that Members were able to go 
on trips or not take trips or know what the rules were or were 
not, I am convinced that she and I will have an opportunity if 
we are still given this honor to serve on this committee either 
next year or the beginning of the next Congress with an 
opportunity to show you how that money has been invested wisely 
for the benefit of the Members and the institution, as well as 
for the staff.
    As a former staffer, yourself, many times the 10,000-plus 
young men and women who work on the Hill come before the 
committee seeking advice as well. And a lot of times that is 
not necessarily going to make a headline in the newspaper 
unless they make a mistake. And so we truly want to embrace 
technology as much as we can, mindful of the budget 
constraints, so that this committee becomes a committee where 
people can come to and get a response back in a timely fashion.
    Mr. McCarthy. Thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. No questions.
    The Chairman. Thank you again for appearing in front of us 
and we certainly hope we never have to appear in front of you.
    Ms. Lofgren. Thank you, Mr. Chair and Mr. Lungren and 
Members.
    The Chairman. Good morning. Committee on Foreign Affairs, 
Chairman Berman and Ranking Member Ros-Lehtinen. We look 
forward to your presentation and your statement, and the floor 
is yours.

  STATEMENT OF THE HON. HOWARD L. BERMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Berman. Thank you very much, Mr. Chairman, Mr. Lungren, 
and truly to your staff for the assistance in helping us get 
ready for this. And I want to thank my ranking member very 
much, Ileana Ros-Lehtinen, for joining me here today.
    I would like to start off by addressing a seemingly high 
budget request from my committee of 23.27 percent increase. 
Almost half of this increase relates to a circumstance which I 
believe is unique to the Foreign Affairs Committee. We support 
financially two commissions and one interparliamentary group 
authorized by Congress, with leadership and members largely 
drawn from outside my committee's membership. It is the 
question of these Members chairing these two commissions and an 
interparliamentary group which accounts for the apparent large 
increase in my request.
    Knowing that these commissions and interparliamentary 
groups are a priority for Members of Congress and are vital to 
the leadership on both sides of the aisle, they need to be 
funded adequately to achieve their mission. The budget request 
from the committee specifically represents a 13.78 percent 
increase for the committee over 2 years, includes a cost of 
living allowance of 4.78 percent this year, a cost of equipment 
replacement and salaries for two additional staff, majority and 
minority, which the Speaker authorized pursuant to House 
resolution establishing the Tom Lantos Human Rights Commission 
last year. Therefore, through the 111th Congress, there would 
be only an average increase each year of 6.89 percent to cover 
COLAs, equipment, salaries and other expenses.
    Our request also contains a budget request submitted by Mr. 
McGovern and Mr. Wolf to fund the newly established Tom Lantos 
Human Rights Commission, and by Mr. Price and Mr. Dreier for 
the House Democrat Democracy Assistance Commission. It also 
contains funds for a temporary additional position to manage 
interparliamentary exchanges. This request for this position is 
made at the behest of Mr. Tanner, to support his activities as 
President of the North Atlantic Assembly. It is quite an 
accomplishment that the NATO parliamentarians chose Mr. Tanner. 
He is going to be President of the North Atlantic Assembly for 
a 2-year term. When Doug B. Rider held that position, he 
received an additional temporary staff to assist him in his 
obligations. That is what we are asking for here.
    So that is one of the three, and that is a temporary 
position for the term of John Tanner's chairmanship of the 
North Atlantic Assembly. The other two are the House Democracy 
Assistance Commission where we requested 506,000 plus dollars 
in total expenses for the work over the next 2-year Congress. 
Their request includes funding and slots for two staffers and 
the equipment needed to support the Commission's activities.
    Mr. McGovern and Mr. Wolf have requested 933,000-plus 
dollars, almost 934,000, in total expenses to fund the Tom 
Lantos Human Rights Commission, which was created September 24, 
2008. No additional funds were provided for it at that time, 
even though we passed a resolution creating the Commission in 
September and the speaker authorized two slots.
    So this is the funding for those two positions. This is the 
first full Congress in which it has existed and thus their 
request includes salary and expenses for four permanent 
staffers, equally divided, and two shared staffers for a total 
of six positions.
    The budget for these two commissions and the North Atlantic 
Assembly position represents 9.49 percent of the Foreign 
Affairs Committee request. Their requests are made through the 
committee because the committee provides the financial conduit 
through which their expenses are accounted. Under our practice, 
the ranking member receives one-third of the salary budget, 
excluding shared administrative staff. Within our allocation, 
the ranking member determines how these moneys are to be 
distributed. The percentage allocated to the minority was the 
same in the 109th and the 110th and will remain the same in the 
111th.
    So to summarize and close, based on the committee's current 
and additional responsibilities, my request for a 13.78 percent 
increase for the committee and a 9.49 percent increase for the 
various commissions is in my opinion a reasonable request. 
Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, Mr. 
Lungren, and fellow committee members. I am proud to appear 
alongside my friend and my good colleague, the distinguished 
chairman, Mr. Berman. Our Committee on Foreign Affairs has a 
long and rich history of working in a bipartisan manner to 
advance our Nation's security interests and foreign policy 
priorities around the globe. The consultative and collaborative 
approach extended into the budget process, with the chairman 
reaching out to me to ensure that the minority's requests were 
incorporated into the final presentation.
    The matters addressed by our committee are among the most 
far reaching and important for our Nation. If we are to provide 
for our Nation's security, we must be able to effectively 
address the threats posed by radical Islamic militant 
extremists, their state sponsors, their financiers and other 
supporters. We must be able to access and to strengthen our 
nonproliferation efforts and develop an integrated approach to 
curbing the spread of chemical, biological and nuclear weapons, 
including by addressing both export control mechanisms as well 
as illicit networks that provide rogue regimes and nonstate 
actors with the technology, the materials, the assistance to 
pursue policies that threaten our U.S. and global security. Our 
focus should not simply be on addressing immediate threat, but 
in pursuing sustainable programs that will build civil society, 
provide for political freedom and economic growth and 
prosperity, thereby countering the precursor conditions that 
breed hatred and extremism and in turn lead to violence and 
terrorism.
    Our committee is also embarking on a long and difficult 
process to overhaul our basic foreign policy assistance 
statute, along with our foreign aid programs, our structures, 
our operations to ensure maximum effectiveness, accountability, 
and transparency. As our oversight plan denotes, we have a 
robust agenda planned for this 111th Congress, and as such, the 
Committee on Foreign Affairs needs to have the adequate 
resources to exert proper oversight and assess, develop and 
implement legislative strategies that will help achieve those 
desired objectives.
    I will continue to work with our chairman, Chairman Berman, 
to achieve a fair and equitable majority/minority distribution 
and look forward to working with all of our colleagues in 
developing and implementing an effective foreign policy that 
promotes U.S. national security interests in the short and long 
term.
    I thank all of you for your time, and I thank the chairman.
    The Chairman. Thank you. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I have 
admired Mr. Berman for many years. We worked together on the 
Judiciary Committee, and I have always known him to be an 
outstanding attorney and he proved it again today by taking his 
increase from 25.9 percent down to 6 percent effectively. Very, 
very well-done.
    Let me ask this. We will not have all the funding that has 
been requested of us. We have a pretty good idea from the 
Appropriations Committee, we are not going to be able to 
fulfill all of these obligations, so we are probably going to 
have to go through some haircuts here. If that were the result 
with your committee, are you prepared to find those savings?
    Mr. Berman. Well, there is no doubt we will adjust to 
whatever----
    Mr. Lungren. Let me ask it this way. Would it be more 
likely that you would find those savings in these new entities 
that you have to gear up for or in your already existing 
functions?
    Mr. Berman. We cannot afford--if we get much significantly 
less than this, I don't think we can afford to do in these 
other commissions what I would like to see done. I mean, the 
human rights work that--I think what they do is bring real 
value to the Congress and basically to American interests. But 
if you look at the agenda of this administration on foreign 
policy, the incredibly complex nature of the issues that come 
before us, the administration's whole intent with respect to 
reinvigorating both diplomacy and development, we want to have 
oversight, we want--we also want to have partnership. We are 
not going--I don't think in our core budget--we need a little 
bit more.
    So I think in the end, the pain will come mostly on our 
efforts to do the work of these independent commissions. But I 
want to speak a little bit about those commissions. I mean, 
that parliamentary commission that the two Davids lead, Price 
and Dreier, they do some remarkable things. They go out and 
meet--help build up and provide--show the parliaments of newly 
emerging democracies how to establish their sort of strength, 
their independence, their staffing, improve their processes, 
become more transparent. They provide a very valuable role. If 
building emerging democracies and strengthening parliamentary 
institutions in those countries is an important priority, I 
hate to see that pulled back.
    But you are right in the sense that we will have to live 
with whatever we get, and my guess is our ability to continue 
to be the conduit for as much funds as I would like to have for 
them would suffer more than the committee's direct activities.
    Mr. Lungren. Ms. Ros-Lehtinen, as I understand it, there is 
the two-thirds/one-third agreement on your committee. Are you 
satisfied with that?
    Ms. Ros-Lehtinen. We are very satisfied that the chairman 
has been working with the minority in a very fair way and the 
minority does retain full control over the one-third of our 
salary budget, excluding shared staff and--such as our security 
officer, systems administrator, budget officer, certain 
administrative staff. And with respect to nonpersonnel items, I 
coordinate very well with the chairman on one-third of all 
nonpersonnel items like--including equipment upgrades, staff 
increases, if any, additions of any sort granted to the 
majority during the 111th Congress.
    So I have found Chairman Berman to be very fair to the 
minority in making sure that we retain full control of our one-
third allocation.
    Thank you, Mr. Lungren.
    Mr. Berman. Could I just add one thing? On these 
commissions, by the way, they are--obviously the temporary slot 
for Tanner is--money will come out of the committee. But Tanner 
is going to have one person to help him perform his job as 
chairman. But on the other two commissions, that is sort of a 
50/50 split, as I understand it. It is a very shared 
nonpartisan approach to the whole thing.
    Thank you very much.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I was just looking at your budget request and 
the upgrades that you want to make in your IT area, I think 
that is good. I just wanted to raise an issue--and you probably 
can't answer today, so I am not asking you to. But there has 
been a concern raised by several Members about cyber security 
and Members who take their BlackBerries abroad and then all of 
the data is stolen or there is insufficient security, 
especially with mobile devices. And I am hopeful that since the 
members of your committee probably travel more than anyone else 
abroad, as they should, that some attention be directed to them 
to--the Members don't always realize that they are putting 
sensitive information at risk. And if a staffer could be 
assigned to raise the consciousness of all of the committee 
members and staff on that point I would be very appreciative.
    Mr. Berman. The only thing I could answer right now, we are 
concerned about that. There was a story that came out about the 
hacking and it was particularly--I think it was some of the 
Foreign Affairs Committee computers. It was believed that 
hacking originated in a large country on the other side of the 
Pacific. But----
    Mr. Lungren. The largest.
    Ms. Lofgren. If I may, Mr. Berman, there is also risky 
behavior that Members can engage in by visiting Web sites not 
realizing that they are actually opening up their systems to 
viruses and worms. And in some cases that has occurred--I don't 
want to talk about in particular instances.
    So certainly we want to have vigorous cyber security in the 
institution of the House, but some of it is also educating our 
Members about what behaviors are risky----
    Mr. Berman. We are bringing in the staff of our committee 
for an NSA briefing on the dangers of this. I personally have 
taken a principled position of not to use a BlackBerry in order 
to avoid security problems and restrict my e-mail account to e-
mailing you.
    Ms. Lofgren. Which I appreciate. Thank you, Mr. Chairman.
    The Chairman. Mr. Harper.
    Mr. Berman. And Lamar Smith.
    Mr. Harper. And this question is for both of you or either 
of you. With the situation that we are in in the country right 
now, what would be the impact on your committee if these new 
positions remained unfunded through this year and was 
reevaluated at the end of the year?
    Mr. Berman. I think, number one, it hurts our ability to do 
the oversight that the House rules are now asking us to do 
vigilantly. I mean, this is a funny situation at this point. We 
have a very ambitious administration agenda in the foreign 
policy area by a new administration and a much more structured 
obligation to do oversight, which we should be doing on that 
administration, even as we try to work in partnership with them 
to achieve common goals.
    I will give you one example. On the majority side I have 
one majority staffer dealing with the Middle East. In addition 
to it being sort of an area that obsesses me, what we are 
talking here is the Arab-Israeli conflict, we are talking about 
Iran, we are talking about Gulf security, we are talking about 
comprehensive peace issues, we are talking about North Africa, 
a huge part of the focus of the terrorism issue. And I need to 
augment that. Without the resources, I won't be able to do that 
and I will be less effective because of that.
    Ms. Ros-Lehtinen. And if I could just add, our U.S. foreign 
policy is an important part of our domestic agenda as well. As 
much as we can reach out to countries and explain what our 
message is and our belief in a strong democracy, rule of law, 
respect for human rights, I think it will bring down the needs, 
the domestic needs of our country in our national security 
concerns. So both issues are intertwined. Foreign policy is a 
domestic concern, and it brings down the cost of our security 
apparatus when we build friendships and relationships around 
the globe.
    The Chairman. Thank you. I think also, Mr. Harper, if I 
may, what he was trying to say, that you come once for 2 years 
of funding. The previous committee was also asked if they could 
come back maybe once a year. It used to be that way with this 
committee. We used to have funding once a year. And maybe it is 
smart for you to project for a 2-year funding. And if need be, 
I would be agreeable to come back again after this year's 
funding, as my ranking member so stated that we are limited in 
what we can give to all these committees. We don't have the 
luxury of giving everything that you want. But if in another 
year if something comes up, especially your sensitive 
committee, you may need extra funding, we have no problem in 
entertaining the fact--try to fight along with you with our 
appropriators to get some more money for you.
    Mr. Berman. Well, with that interesting idea, it may become 
a necessity.
    The Chairman. It may. We have no problem entertaining or 
doing it if need be.
    Mr. Lungren. And also it would give us an opportunity to 
review how these new functions are carried forward.
    Mr. Berman. In terms of the Commission's work or the 
oversight work?
    Mr. Lungren. And in terms of--if you get an additional 
person in the Middle East, how that is working out. I mean, is 
it bolstering your ability to do what you need to do, those 
sorts of things that you hope will happen. After a year, we 
could see at least how far along you are on that progress or if 
there has been progress made.
    Mr. Berman. Another example. We have one--I have one full 
committee staff person to cover every issue involving Europe 
and Russia and Europe in the most expansive sense of the term 
``Europe.'' I mean, one only has to read the paper every day to 
understand all the issues that subsumes. But I take your point.
    The Chairman. More money or another person? What are you 
saying, you need more money or another person?
    Ms. Ros-Lehtinen. We will take both.
    Mr. Berman. Unless I can find a slave----
    Ms. Ros-Lehtinen. We are against that, Howard.
    The Chairman. Thank you.
    I understand the Intelligence Committee is on their way. It 
will be a few minutes.
    The Chairman. Mr. Hoekstra may be on his way. He is stuck 
in another committee but we are ready to go with Intelligence 
with Chairman Reyes. And also I understand that Ranking Member 
Hoekstra did submit a statement for the record so we will 
accept that and we will proceed with you and hopefully he will 
get here.
    [The information follows:]

  STATEMENT OF THE HON. SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Very good, Mr. Chairman. Thank you very much.
    The Chairman. Thank you.
    Mr. Reyes. Mr. Chairman, I appreciate the opportunity to 
testify before you and my colleagues on the committee. Thank 
you for providing me with this opportunity to explain and 
describe the committee budget request for the House Permanent 
Select Committee on Intelligence for the 111th Congress.
    Given the current economic climate, the committee has 
redoubled its commitment to a program of fiscal restraint and 
has moderated its request to reflect our commitment. The 
committee is requesting only a 1.5 increase over our 2008 total 
budget authority for 2009. And for 2010, the committee is 
requesting an increase of less than 1 percent over the 2009 
total budget. There is no excess, Mr. Chairman, in this 
request, and the committee requires these funds to meet its 
responsibilities in the course of the 111th Congress.
    As you know, the House Permanent Select Committee on 
Intelligence has seen its committee membership increase by one 
this Congress, from 21 members to 22. The committee is 
authorized 44 staff slots which allows for 5 designated support 
staff, 26 majority staff and 13 minority staff. At present the 
committee's 13 majority members and 9 minority members are 
served by 37 on our staff to include 5 designated support 
staff, 21 majority staff, and 12 minority staff members who 
work in accordance with our rules at the direction of the of 
Ranking Member.
    Now that the committee has relocated from its office in the 
Capitol to the new much larger spaces in the Capitol Visitor 
Center, the committee anticipates filling as many vacant staff 
positions as necessary to fulfill our committee's mission. As 
has been the case since the 106th Congress, the committee will 
abide by the two-thirds/one-third allocation for personnel 
salaries in the 111th Congress, whereby the minority will 
control one-third of the budget for personnel salaries and lump 
sum payouts. And as was the case in the 110th Congress, the 
support staff will continue to support the entire committee, 
and the majority will continue to pay the entirety of support 
staff salaries during the 111th Congress.
    Mr. Chairman and members of the committee, since September 
11, 2001, it has been imperative for the Intelligence Community 
to improve its intelligence capabilities significantly so that 
decision makers are well informed as they deliberate and 
determine the direction of national security and homeland 
security policies. In the past we have witnessed how the 
failure to provide and to coordinate intelligence capabilities 
can result in a breakdown in the formulation of policy and 
operational planning.
    In the 111th Congress, the committee will endeavor to 
provide the Intelligence Community with the resources and 
capabilities that it needs to carry out this very critical 
mission to our national security. We anticipate a determined 
focus on the issues of terrorism, cyber security, effective 
intelligence support to the warfighter and to policymakers, the 
proliferation of weapons of mass destruction, and the 
penetration of hard targets such as Iran and North Korea.
    Unfortunately, world events continue to illustrate the vast 
number of challenges facing the Intelligence Community and 
these challenges require rigorous and vigilant oversight on the 
part of our committee. The committee views these 
responsibilities to conduct oversight not only in terms of 
threats posed to our Nation but also in terms of our Nation's 
ability to disrupt these activities and to respond successfully 
to these threats.
    The committee is also committed to conducting the 
painstaking oversight required to reassure that the American 
people have an Intelligence Community that is fully observing 
its legal obligations.
    Mr. Chairman, the specifics of this committee's budget and 
our request are directly supportive of the oversight activities 
that I have outlined in the discussion draft of the committee's 
oversight plan for the 111th Congress. As I mentioned 
previously, the 2009 budget request is a modest 1.5 percent 
increase over the 2008 total budget authority. The committee 
was very grateful that the budget allowance for the 110th 
Congress, especially the funding for 2008, was generous enough 
to allow the committee to replace and upgrade a significant 
portion of its equipment during our relocation from H-405 to 
the Capitol Visitor Center. As such, the committee has now 
appropriately scaled back the 2009 budget for equipment and 
associated maintenance and consultant contracts as we finalize 
a few information technology components that are associated 
with our move.
    Given this reduction in one budget line, the 2009 total 
increase reflects a 1.2 increase in the category of personnel 
compensation, a 35.7 percent increase in travel-related 
funding, the doubling of funds available for printing and 
reproduction, and a 20 percent increase in both supplies and 
materials category and the other services budget line. In order 
to fulfill our unique mission, the committee must recruit and 
retain highly qualified and cleared staff.
    The enlargement of committee space in the Capitol Visitor 
Center also allows us to fully staff our committee for the 
first time. As such, the increased funding for personnel 
compensation would permit retention of key personnel with 
unique expertise, as well as the expansion of committee staff.
    The committee's obligation to exercise oversight over the 
Intelligence Community has intensified as the Intelligence 
Community has become more significantly engaged in every corner 
of the world. Given substantial increases in airfare, the cost 
of lodging, meals, parking, taxes and other associated costs, 
the recent genesis of a host of airline surcharges, the 
committee is requesting a $25,000 increase in our travel 
budget. The committee will continue to seek military escorts to 
mitigate the costs associated with commercial travel.
    The oversight conducted by this committee is inherently 
classified in nature. However, I am dedicated to providing as 
much transparency as is possible. Too often the taxpayers are 
suspicious of the actions undertaken by elements of our 
Intelligence Community, especially in light of the programs 
revealed under the Bush Administration. It is my hope that the 
committee's oversight work will serve to reassure the public 
that the men and women of our Intelligence Community are not 
the questionable characters they have been made out to be. 
Instead, these men and women are your friends and neighbors, 
patriotic public servants who sacrifice and serve our Nation 
quietly, without the expectation of recognition or accolades.
    In this vein, the committee anticipates a greater number of 
open hearings, an increase in printing and distribution of 
unclassified documents, reports, transcripts and the reuse of 
the committee's compilation of intelligence laws and related 
laws and executive orders of interest to our national 
Intelligence Community.
    The 20 percent increase in 2009 in the ``other services'' 
budget category includes funding for the committee's contract 
to host and update both the majority and minority Web sites. 
The increase also allows for more professional staff 
participation in intelligence-related conferences and seminars, 
makes available funds for continued information technology and 
security training for committee support staff, and provides 
moneys to complete the furnishings of our new spaces in the 
Capitol Visitor Center.
    Notably in 2009, the committee will make several one-time 
representational expenditures to include the purchase of two 
committee crests, flags, and flag stands. The request also 
reflects a 60 percent reduction in funding for consultant 
contracts, which in previous years have been overfunded.
    Finally Mr. Chairman, in 2008, due to unforeseen needs and 
increased costs, the committee exceeded the supplies and 
materials allocation by almost $4,000. The request for 
increased funding in this budget category for 2009 will correct 
this shortfall and adjust for inflationary costs.
    For 2010, the committee continues to exercise fiscal 
restraint with a requested increase of less than 1 percent over 
the 2009 total budget authority. This nominal increase in the 
total budget authority takes into account a modest cost-of-
living adjustment of 2.8 percent for committee personnel and 
also provides upwards adjustments for anticipated inflationary 
costs for travel-related expenses and supplies and materials. 
The request is also indicative of a $70,000 reduction, or 22 
percent decrease, in the equipment and related maintenance 
budget from 2009 to 2010.
    Mr. Chairman, the committee's budget request for the 111th 
Congress is sound, ensuring an effective balance between fiscal 
responsibility and the need for appropriate oversight. The 
funds requested are the funds required for the committee to 
conduct our oversight properly and responsibly. As the 
exclusive overseer of the Intelligence Community for the U.S. 
House of Representatives, I give you my commitment that the 
committee will continue to act as guardian of the taxpayer 
monies that are used to finance our intelligence programs and 
to account for the programs intended to safeguard the Nation's 
security and protect our individual freedoms.
    With that, Mr. Chairman and members of the committee, I 
thank you for your consideration of this request, and now I 
would welcome any questions that you might have.
    The Chairman. Thank you, Mr. Reyes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much Mr. Chairman. And thank 
you for the presentation, Mr. Chairman.
    Mr. Reyes. Thank you.
    Mr. Lungren. It was one of the most succinct and extensive 
and actually very impressive testimonies we have had in the 
last couple of years that I have been here. As one who served 
on that committee in the 1980s, I appreciate the work that you 
do. And I am actually surprised. When I went up to some 
briefings in the Intelligence Committee last year, I found out 
that nothing had changed in the last 20 years in terms of the 
equipment that you had, the staffing space that you had. And 
you have now moved into new quarters, which are definitely 
needed. But I am surprised that you are not asking for 
additional funds. I appreciate very much your concern about the 
fiscal responsibility of your committee.
    Let me just ask you this. This is a committee that--over 
the last--well, from 105th to 110th Congress averaged an 
increase, Congress over Congress, of 17 percent, and then from 
108th to 110th Congress it was 14.7 percent. So you are asking 
now for a combined 3.7 percent. The concern is no less. That 
is, for the responsibility that you have, the terrorism that we 
have in our outside world is there, the need for intelligence 
is there, the need for oversight is there.
    Can you tell us how you are able to achieve your continuing 
responsibilities with such a fiscally responsible request?
    Mr. Reyes. Well, absolutely. And thank you. And I was 
unaware that you were a member of this committee in the 1980s.
    Mr. Lungren. I just look a lot younger than I am.
    Mr. Reyes. But I can tell you a couple of reasons. The 
first one is we have been able to invest in technology. We have 
now, thanks to the money that was available to us in 2007-2008 
for the move down--the anticipated move down to the CVC, we are 
now able to support two different systems: one, a secure 
network that ties us in with the rest of the Intelligence 
Community and Department of Defense; and then, the regular one 
that will not be cleared for classified information, number 
one.
    Number two, we have had an opportunity since I took over as 
Chairman in 2007 to formalize the recordkeeping and all of the 
accounting systems that we found did not exist in a sensible 
fashion when I took over as Chairman.
    While you know, having been a chief in the Border Patrol, 
you never want to turn down money, we feel very comfortable 
that the submission that we have requested from the committee 
is ample enough to carry out our duties in oversight, making 
sure that the Intelligence Community provides this Nation with 
our utmost in protecting our national security.
    The Chairman. Would you be averse to coming back to this 
committee in a year or so that we could reassess where you are 
with your budget, see if you have been able to accomplish what 
you needed to accomplish?
    Mr. Reyes. Absolutely not. I would be happy to come back.
    Mr. Lungren. I thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Ms. Lofgren, any questions? Mr. 
Harper?
    Mr. Harper. No questions.
    The Chairman. We do have a statement from Mr. Hoekstra in 
the record. If anybody has to ask him a question, you can 
submit the question to the Clerk and we will get an answer for 
you. Thank you, Mr. Chairman.
    Mr. Reyes. Thank you, Mr. Chairman and members of the 
committee.
    The Chairman. Chairman Spratt, Ranking Member Ryan, thank 
you for coming here today. And we look forward to hearing from 
you, hearing your testimony and whatever you have to say. The 
floor is yours, sir.

STATEMENT OF THE HON. JOHN M. SPRATT, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Spratt. Chairman Brady, General Lungren, members of the 
committee, thank you for this opportunity to testify regarding 
the Budget Committee's funding request for the 111th Congress. 
For each session of this Congress the Budget Committee is 
requesting a funding level that is frozen, fixed at the end of 
last year's level. In other words we are requesting the same 
allocation for 2009 and 2010 as we enjoyed in 2008.
    The Chairman. Spoken like a true budget chairman.
    Mr. Spratt. We think we are setting a positive symbol. 
Additional resources would be useful and welcome. But in light 
of the fiscal challenges facing the Federal budget, we believe 
that a continuation of the funding level provided for last year 
should be sufficient for the Budget Committee for the 111th 
Congress as well.
    Looking at the funding requests on an account-by-account 
level, the largest account by far is, as usual, the personnel 
account. In the last Congress our personnel costs were less 
than anticipated, substantially less because of some very 
significant vacancies on our staff, including the policy 
director, a degreed economist, and two budget analysts. We 
anticipate filling these vacancies in the new Congress and we 
believe that the proposed level of personnel compensation will 
allow us adequately to staff the committee with highly 
qualified staff.
    Our equipment budget allows for a continuation of regular 
upgrades of computer hardware and software and other equipment. 
Regardless of which party has been in the majority, we on the 
Budget Committee have prided ourselves on a collegial 
relationship with our counterparts in the Republican Party and 
with respect to the committee's budget. When we were in the 
minority, we always had a mutually agreeable arrangement with 
the previous majority, an arrangement which we continued in the 
110th Congress when we moved up to the majority.
    In consultation with the minority, we intend to continue 
this longstanding practice in the 111th Congress. The practice 
is that the minority controls one-third of the total budget for 
personnel, meaning a third of the available staff slots and a 
third of the line items for personnel. Additionally we will 
continue the committee's past practice of upgrading the 
minority's equipment and provide for other expenses for the 
minority out of the overall committee equipment and expenses 
budget.
    I look forward to answering any questions you may have 
about the committee's request, and thank you very much for your 
consideration and your support in past years.
    The Chairman. Thank you, Mr. Chairman.
    [The statement of Mr. Spratt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Ryan.

    STATEMENT OF THE HON. PAUL D. RYAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Ryan. Chairman Brady, Ranking Member Lungren, I am 
pleased to testify here concerning our committee's funding 
resolution for the 111th Congress. I support Chairman Spratt's 
request for the committee. Our committee has long been 
characterized by vigorous policy debates, but the proceedings 
of our committee are carried out in a very civilized manner. 
Chairman Spratt has set that example. Chairman Spratt has 
continued that tradition, and I think the two of us have 
enjoyed a cordial and professional working relationship over 
the past 2 years.
    I join the Chairman in recommending a disciplined funding 
level for the House Budget Committee. The recommended level 
freezes funding at the 2008 level, authorized for our 
committee. Our committee has a bipartisan tradition regarding 
the allocation of resources between the majority and the 
minority. I thank Chairman Spratt for keeping that tradition 
alive and well.
    The majority makes at least one-third of the personnel 
budget available for the minority, equipment for both majority 
and minority then comes out of a common fund on the same 
schedule and with the same quality for both sides.
    I have been assured, as you just heard in his testimony, by 
Chairman Spratt, that this will continue in the 111th Congress. 
This recommendation is a disciplined budget that treats the 
minority fairly. On that basis, I support the request and urge 
the Committee on House Administration to do so likewise. Thank 
you.
    The Chairman. Thank you.
    [The statement of Mr. Ryan of Wisconsin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Any questions? Mr. Lungren.
    Mr. Lungren. First of all, I thank you both for coming and 
thank you for your testimony and thank you most of all for your 
budget submission here. This is the second bit of good news we 
have had in a row here about committees telling us that they 
can do a good job while being very, very fiscally responsible.
    What would you say if we were to indicate to you that it 
might be the feeling of this committee that we ought to have 
committees come back, even though we have the approval of a 
full Congress for their budget request, come back after a year 
for us to take a look at how you have spent the money and see 
how the budget is forming up with what the responsibilities are 
as opposed to just having committees come to us once every 2 
years?
    Mr. Spratt. You mean once a Congress as opposed to----
    Mr. Lungren. Right now we just have them come once a 
Congress. We are thinking about maybe having committees come 
back after the first of the year so we can review their 
budgets, see how the expenditures are going, and see in fact if 
it is in concert with the spending plan and the 
responsibilities that they thought they would have to carry 
out.
    Mr. Spratt. I don't have a problem with that.
    Mr. Ryan. Sounds fine to me.
    Mr. Lungren. Thank you very much. And, again, thank you for 
the presentation and thank you for setting an example for this 
Congress.
    Mr. Spratt. Could I add one thing, please, Mr. Chairman, 
Mr. Ranking Member?
    The Chairman. Sure.
    Mr. Spratt. Out of the jurisdiction--not about the Budget 
Committee, about the committee I served on for 26 years, the 
House Armed Services Committee. In the years when the money was 
plentiful for staff and for committees, our committee was not 
as aggressive as it might have been. If you can help that 
committee, they can very much use the help to the advantage of 
the House, particularly with personnel. But also our committee 
room is one of the better committee rooms in the House because 
we have got lots of modern electronic devices, and that would 
greatly help that committee as well. It is a major meeting 
place or venue for briefings and things of that nature. If we 
could get better sound equipment and better visual monitors 
like these, I think it would be a plus for that committee and 
increase the quality of our work.
    The Chairman. I will tell Mr. Skelton and Mr. McHugh that 
you have put that in the record.
    Mr. Spratt. I didn't ask for it. I volunteered it. I think 
it would be money well spent. Thank you very much.
    The Chairman. You are welcome. Any questions, Ms. Lofgren, 
Mr. Lungren? Thank you. Thank you for being here today.
    We would like to welcome the Agriculture Committee, Mr. 
Peterson and Mr. Lucas. Thank you for appearing here today and 
we appreciate your promptness. We took you a little bit out of 
order because the Global Warming Committee is a little bit 
behind. But what they don't know is that we take money, a 
percentage away for every 10 minutes they are late. And the 
committee that jumps ahead, we are much more favorable towards. 
So we look forward to your testimony.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. All right. Thank you very much, Mr. Chairman 
and members of the committee. And thank you for this 
opportunity to be here today. I appreciate Ranking Member Lucas 
joining me to outline our committee's proposed budget for the 
next 2 years. Representative Lucas, as you know, takes over as 
Ranking Member for Mr. Goodlatte of Virginia who served as top 
Republican on this committee for 6 years. Mr. Lucas is a 
longtime member for the whole time he has been in Congress of 
the Agriculture Committee, and he knows well of the long proud 
history of bipartisan cooperation that has been the hallmark of 
our committee.
    Chairman, the House Ag Committee has a strong tradition of 
offering outstanding service to committee members and their 
staff from providing thoroughly researched materials related to 
legislation under the committee's jurisdiction. This work is 
done despite modest staffing and budget resources in relation 
to committee size and standing within the House. I think this 
is a credit to the work of a highly qualified and experienced 
staff on both sides of the aisle.
    Given the workload that the committee will assume this 
year, we propose a moderate but necessary increase in funding. 
These resources will be essential to the committee's success in 
the 111th Congress as we have planned an active and busy 
oversight agenda.
    We have working expeditiously on commodity and financial 
derivatives legislation. In fact we are having a markup 
tomorrow at 1:00. Last year the committee held extensive 
hearings on the lack of transparency and oversight of the 
derivative markets. This work resulted in a strong bipartisan 
bill that received over 280 votes when it passed the House. It 
did not move in the Senate. Completing derivatives legislation 
has been a top priority of our committee since the 111th 
Congress began, as we have already had two hearings on the 
draft language with the intent of passing a strong bipartisan 
bill.
    Chairman, 2 years ago when I sat in this room, our 
committee was ready to begin the process of writing a new Farm 
Bill to authorize our Nation's major farm conservation, 
nutrition and rural development programs. While that process 
may have taken a little bit longer than anyone on our committee 
would have liked, a Farm Bill was completed and enacted last 
May. Our committee is now focused on an effective timely 
implementation of the Farm Bill by the new administration. We 
have been working on that with the previous administration.
    We have had some issues that we have been able to generally 
resolve. One of them actually took us having to pass a bill to 
resolve it. But we intend to continue this vigorous oversight 
and we are going to make sure that the congressional intent is 
followed in that regard.
    The Agriculture Committee also plans to conduct active 
oversight in the area of food safety, which affects every 
congressional district and constituent in America. Last 
Congress, we held instructive hearings on recalls, traceability 
and new technology in the areas of food safety, and we intend 
to expand our efforts to ensure that the U.S. Department of 
Agriculture has the resources and procedures in place to 
protect the public from food-borne illnesses, at least within 
the areas where we have jurisdiction.
    In addition, our committee plans an aggressive top-to-
bottom review of the Department of Agriculture. We will examine 
the Department's structure, consider possible changes, strive 
to ensure that the agency is capable of meeting its goals and 
serving ranchers, farmers, and consumers.
    Mr. Chairman, there are some things we are undertaking for 
the first time that I would like to make your committee aware 
of. We are requesting a modest increase in resources in order 
to strengthen the committee's Web sites, multimedia 
capabilities including webcasting and video functions.
    The committee would also like to increase investment in a 
redesign of the current Web site in order to make sure--make it 
more transparent and accessible to Members, staff, and to the 
general public.
    And, finally, I would again return to the process of 
writing a Farm Bill. Prior to the legislative work on the Farm 
Bill that our committee began in 2007, we have spent part of 
the previous Congress conducting a series of nationwide field 
hearings to hear from producers, processors, consumers, and 
advocates about farm nutrition and renewable energy policy. 
Those hearings were an invaluable resource for our members when 
writing the Farm Bill. And we intend to conduct the first set 
of Farm Bill field hearings in 2010, both to look back at the 
2008 bill and to consider the future of food and farm policy.
    So thank you for your consideration of our budget request. 
I am confident that with the resources requested, our committee 
can continue to work in a bipartisan fashion to complete our 
agenda for the 111th Congress.
    The Chairman. Thank you.
    [The statement of Mr. Peterson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Lucas.

   STATEMENT OF THE HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Lucas. Thank you, Chairman Brady, Ranking Member 
Lungren, and members of the committee. I am pleased to be here 
today in support of the Ag Committee's 111th budget request 
alongside Chairman Peterson. As you just heard from Chairman 
Peterson, our committee has enjoyed a long history of 
bipartisanship and I plan to continue that spirit of 
cooperation as we proceed with the work of the committee in the 
111th Congress.
    We have major tasks ahead of us with the implementation of 
the Farm Bill and monitoring the effects of the economic 
downturn in rural America. In addition to bipartisanship, the 
Ag Committee has a strong history of fiscal responsibility. The 
modest spending and cooperative nature of our committee spans 
back more than two decades under the control of both parties. 
It is my intention to work with Chairman Peterson and the 
members of the committee to ensure that this tradition is 
continued. And I ask that you grant us the funds requested to 
reach our goals. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    The Chairman. Thank you.
    [The statement of Mr. Lucas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
both of you for appearing before us. As you know, we are the 
authorizing committee. We have to work with the Appropriations 
Committee. We understand that if we granted all the requests 
from all the committees that come here, we would exceed what 
the Appropriations Committee is going to give us. So we will 
have to make some decisions with respect to committees. If in 
fact your increased request were required to take a haircut, do 
you have an idea where you would try to find those savings, 
what the priorities would be such that we would have some idea 
how that would affect your request?
    Mr. Peterson. Well, we are a practical bunch at the Ag 
Committee, and we will deal with it. We will adjust the 
resources to make sure that our obligations and 
responsibilities are taken care of. You know we are not out to, 
you know--I think our requests have been modest, and we 
actually returned money this last Congress that we didn't 
spend. So I think we have been fiscally responsible. I guess 
one of--you know we are trying to--what I was expecting to do 
at the beginning of this Congress was get into this 
reorganization or look at USDA. Because of the financial crisis 
and so forth, I have spent all of my time working on this 
derivative stuff. But we are going to get to this. There seems 
to be an interest on the part of the new Secretary in looking 
at this. And if we are going to do this right, you know, this 
is going to take a lot of work and a lot of resources to get at 
what I think are some problems down at USDA. And it is not 
unique to them.
    But we have got big computer problems. You know they 
still--the county offices have AS 400s, they are writing in 
COBALT, if you can believe that. The programs that send out the 
checks to the farmers are still being written in COBALT. They 
have got system 36s tied into the system. This thing has got to 
be brought into the 21st century. So you know if we could get 
that computer thing fixed, you know I think we could really 
streamline a lot of things in the Department. But it is going 
to take a lot of work and it is going to take people on our 
staff that can help us get to the right conclusion. But if we 
don't get what we are asking for, we will deal with it and 
adjust accordingly.
    Mr. Lungren. I don't think it was addressed, but the 
question of staffing one-third/two-thirds, which is the 
principle that we operate on under here, is that reflected in--
--
    Mr. Peterson. Yes.
    Mr. Lungren [continuing]. In this budget request?
    Mr. Peterson. Yes.
    Mr. Lucas. Yes.
    Mr. Lungren. You are satisfied?
    Mr. Lucas. Yes.
    Mr. Lungren. One of the things we have been talking about 
is, because of what you mentioned about funding and trying to 
make the best educated guess we can on what the requirements 
are going to be and so forth, that even though we might 
authorize the 2-year funding from here, that we might ask 
committees to come back after a year so that we can reassess 
and see whether, in fact, the obligations they had turned out 
to be that way and whether in fact the money that they 
requested was the money that they needed, or whether there was 
some review that was necessary. Would you be averse to----
    Mr. Peterson. No, not at all.
    Mr. Lungren [continuing]. Coming back and reporting to us 
on how things are going?
    Mr. Peterson. I would be happy to do it.
    Mr. Lungren. Very good. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Also that goes the other way. If we cannot 
give the amount of funds you are asking for, when you come back 
maybe we can increase it because you are doing such a good job, 
and you still have that need. So that will happen on both ends.
    Mr. Harper, no more questions.
    Thank you again for joining us. Thanks for being here.
    Mr. Peterson. Thank you.
    The Chairman. Good morning. We will take up the Committee 
on Global Warming. Mr. Markey is here. Mr. Sensenbrenner is not 
showing up, but he also does support your statement and 
supports your request. We thank you for coming and showing up 
here a little late. We do penalize people that come late 
percentage-wise by every minute. So you will be getting a 
little less than your request. So make it up in a better 
presentation.
    Chairman Markey.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank you very much. Perhaps I can compensate 
by reducing the length of my opening statement.
    The Chairman. That will really work. You are right back on 
track, sir.
    Mr. Markey. We can then add back on what it is that we 
receive. And I just want to thank you, Mr. Chairman and Mr. 
Lungren, for allowing me to come here this morning.
    The Select Committee on Energy Independence and Global 
Warming was formed by Speaker Pelosi in March of 2007 and 
created by H.R. 202 in the 110th Congress. That resolution 
funded the committee for the 110th Congress, and consequently 
this is the first time for this committee to consider the work 
of the select committee.
    The select committee has 15 members, 9 Democrats and 6 
Republicans. And Jim Sensenbrenner, as you pointed out, is the 
ranking member. And in our first year, we held 55 hearings.
    The Chairman. Excuse me, sir. Could you push that button 
for the microphone? I am sorry.
    Mr. Markey. Thank you. Excuse me. I apologize to you.
    Jim Sensenbrenner is the ranking member. In our first term, 
we held 55 hearings, covering topics that range from the 
geopolitical implications of global warming to the impacts of 
global warming on the Arctic, to biofuels and other renewable 
technology, to oversight of the Executive branch and the auto 
industry. In October, we published a report to the Speaker 
laying out our recommendations on these issues and a plan to 
move forward as we negotiate this climate crisis towards our 
green energy future.
    Towards the goal of resolving these issues, the select 
committee, with Speaker Pelosi, traveled to Greenland, to 
Germany, to India for 8 days in order to fully explore the 
climatic and the international ramifications of moving forward 
on climate change legislation. And the Speaker's participation 
in those trips that we took to these many countries over the 
last 2 years I think is in anticipation of the work which we 
are going to do this Congress as well.
    We have already been active at looking at our important 
energy and environmental issues. Last week we held our second 
hearing of this Congress to explore how the nations in the 
world can reach an agreement in Copenhagen in December of this 
year. We are prepared to match our success from the last 
Congress by holding educational hearings for our members and 
the public, several field hearings to highlight the regional 
challenges of global warming facing this country and the 
opportunity for success.
    We are asking for a very modest increase on our committee 
budget from 2008 to 2009, and I am pleased to report that Mr. 
Sensenbrenner supports the funding resolution and has agreed to 
cosponsor the resolution. The only significant change in our 
budget is to increase staff pay by the recommended cost of 
living adjustment for Washington, D.C., 4.7 percent. To 
accomplish this, we are asking for an increase to $2,096,000 
for 2009. For 2010, we are asking for $2,070,600. Both years 
are a small increase from our 2008 appropriation.
    We use the recommended split of funds by providing one-
third to the minority, two-thirds to the majority. Similarly we 
divide our 21 staff positions, 7 to the minority, 14 to the 
majority.
    I obviously cannot speak for Mr. Sensenbrenner, but we have 
worked very closely together in a cooperative relationship in 
order to accomplish the goals which we have.
    Again, I apologize. I was on the floor waiting for my time 
to speak about our great chairman of the Energy and Commerce 
Committee, Mr. Dingell, next to whom I have sat for the last 33 
years as a Member of Congress, and I appreciate your indulgence 
in allowing me to do that.
    [The statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Mr. Lungren, questions?
    Mr. Lungren. Yes. Thank you very much. And I thought you 
were going to use your Achilles as the reason you couldn't get 
over here in time. I have tried that one and it sometimes 
works. So keep that one in your back pocket.
    We are the authorizing committee and we can either allow 
decisions that we make here to be the contours of the 
expenditures by the various committees or we can grant 
everybody's requests and then, knowing that the appropriations 
subcommittee is not going to grant all that, have them do it. 
So I think we would rather exercise our jurisdiction in that 
regard, and that will require us to put haircuts on a number 
of, if not all of the requests that we have. We just can't meet 
all of these requests.
    Are there some priorities that you have that you would 
protect more than others if you had to make some tough 
decisions with respect to the spending that you have got here?
    Mr. Markey. That is tough, principally because President 
Obama and the Speaker have both said that global warming and 
energy are their signature issues for these first 2 years. So 
in order to meet the incredible schedule which is going to be 
created to deal with these issues and knowing that they are 
moved up to the very top of the list amongst all the important 
issues, it is a difficult--that would be a difficult decision 
for me to make, to be honest with you.
    Mr. Lungren. If you were a committee that had just started 
and had trouble starting up and then was going to have a 
tremendous increase in the work that you were going to do over 
the first year, I could see a significant increase or even a 
modest increase. But you came out of the chute really working. 
You have had 55 hearings. You had those educational efforts. 
You had the international travel, and I just think you guys 
really worked hard last time.
    Mr. Markey. Thank you.
    Mr. Lungren. You are probably going to continue to work 
hard.
    Anyway, those are the kinds of things we have to keep in 
mind here. Because as I say, otherwise we grant everybody close 
to what they want or what they want and then the appropriators 
decide. And it just seems to me that we are supposed to be the 
authorizing committee. So we are going to have to make some 
tough decision. And if you could help us with any guidance on 
that, it would be beneficial.
    The other thing I would just ask is this. Because of the 
difficulty that we are having with the economy this year and as 
we are looking at requests, there is some thought that we have 
the chairman and the ranking member come back to us after a 
year. In other words, we make the decision with respect to the 
budget, a 2-year budget, but come back and we take a fresh look 
at how you are doing, what you are doing, and how much of an 
increase in activity you have, those sorts of things. Would you 
be adverse to coming back?
    Mr. Markey. Absolutely not. And I think we will have plenty 
of evidence to justify the budget which is granted to us this 
year. No, I would be more than willing to.
    Mr. Lungren. Thank you very much. Thank you, Mr. Chairman.
    Mr. Markey. Might I just say, Dan, that when the Speaker 
and I talked about this 2-year period, we actually talked about 
the amount of time it was going to take. So we agreed that 
perhaps I should leave the Homeland Security Committee just so 
it freed up more time to work on this.
    Mr. Lungren. And I noticed that.
    Mr. Markey. I hope that is one of the reasons that you 
might look more favorably upon----
    Mr. Lungren. That you left Homeland Security?
    Mr. Markey. The fact that I am not on the committee 
anymore.
    Mr. Lungren. I see. You are pulling out all the stops. I 
appreciate it. Thank you very much.
    The Chairman. You are looking for sympathy now, I 
understand. Flattery is better.
    Mr. Markey. Well, no, not sympathy. I am looking for 
gratitude. Mr. Lungren and I have----
    The Chairman. Flattery is still above all.
    Mr. Harper.
    Mr. Harper. Chairman Markey, thank you very much. I 
appreciate it. My understanding--of course I can ask this as a 
rookie--your committee has no legislative authority; is that 
correct?
    Mr. Markey. That is correct.
    Mr. Harper. Is there any intent that it will move towards 
that in future Congresses, to have legislative authority?
    Mr. Markey. No. In fact, the Speaker has made clear this is 
the final 2 years for the existence of this committee. So what 
she has laid out as her goal and why she asked me to stay on 
for the next 2 years, she wants to make these 2 years the 
energy independence and global warming 2 years. And so I, you 
know, have left the Homeland Security Committee, I have 
redoubled all my energies on this subject at her request, but 
with her goal of having completed, you know, an agenda in these 
areas by the end of these 2 years.
    Mr. Harper. And if energy independence is a goal that we 
have, has your committee taken a position on the drilling for 
oil in ANWR and for offshore exploration?
    Mr. Markey. We would not cast votes on it, but we would 
conduct hearings that would make it possible to have the 
Members of the House fully informed as to what the 
countervailing considerations were in casting a vote on that 
issue.
    Mr. Harper. Is there a mood that you would support the 
drilling for oil in ANWR as part of the energy independence 
goal?
    Mr. Markey. In ANWR I would put it lower on the list. But 
as Mr. Lungren knows, last September in the House we voted to 
open up consideration for new areas for drilling in the Outer 
Continental Shelf. Now, I do believe sensitive areas should be 
protected, including Georgia's Bank. But with that said and 
that kind of protection built in, I did vote to open up that 
whole debate in terms of where we should be drilling.
    So I am not saying anything other than that it is now time 
for us to do this comprehensive review of all of these issues. 
And yesterday Secretary Salazar actually announced the 
beginning of this comprehensive review of the Outer Continental 
Shelf with my support so that we can begin that process.
    Mr. Harper. That legislation, did it include revenue 
sharing for the States?
    Mr. Markey. I think there was some revenue sharing that was 
included in that legislation. I can't remember the exact 
proportion that was included. But there was some, yes.
    Mr. Harper. Will this committee work towards a 
recommendation as far as clean coal technology is concerned?
    Mr. Markey. Yes. In fact, we have had a number of hearings 
on that subject, including the Governor of Wyoming, who 
recommended that we include multi-billions of dollars in clean 
coal technology. The chairman of this committee is a fierce 
advocate for that position. In fact, I think because of the 
kinds of hearings we had in the last 2 years, there is now a 
consensus between liberals and conservatives in the Congress 
that the debate is not over whether or not we are going to fund 
clean coal technologies, but over how much.
    So, for example, in the stimulus package, at my 
recommendation, amongst others, there is $2.4 billion on the 
House side of the debate for clean coal technology research, 
carbon capture, and sequestration. On the Senate side, it is 
about $4 billion. So that is what the debate is over, how many 
billions we spend, not over whether or not we want to reach a 
day where clean coal technology is part of the energy mix in 
our country.
    Mr. Harper. And one final question, have you taken a 
position as far as carbon tax or cap and trade or, C, none of 
the above?
    Mr. Markey. Yes. President Obama has called for a cap and 
trade system. The Europeans are moving towards a cap and trade 
system. The cap and trade system which the Europeans are 
putting in place is based upon the 1990 Clean Air Act, acid 
rain bill, which was a cap and trade system that ultimately 
over about a 4-year period pretty much solved the problem.
    So I think if we are going to square up with the Europeans 
and then turn to the Indians and the Chinese with kind of a 
unified position for them to be included in any ultimate 
program, I think a cap and trade system makes the most sense 
because the Europeans already have one. It has already worked 
for acid rain, sulfur, and nitrogen oxide in our country, and I 
think if we move to carbon and other greenhouse gases that it 
makes the most sense to move in that direction?
    Mr. Harper. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman.
    Mr. Markey. I appreciate it. Thank you, Mr. Harper.
    The Chairman. The committee will be in recess until 12:30.
    [Recess.]
    The Chairman. Thank you, Mr. Chairman, for giving your 
testimony.

    STATEMENT OF THE HON. BARNEY FRANK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. The Committee on Financial Services has been 
funded at a much lower level than I think the level of activity 
and the number of members justifies. We are the second biggest 
committee. We had asked the Speaker to get smaller, but we got 
bigger by one. And we have been thrust into a very high level 
of activity, things like the automobile issue, financial 
restructuring, the TARP. And frankly I feel terribly guilty 
about the people who work for the committee and how overworked 
they are and overstressed. We, as I said, I think have been as 
active as any committee in the House, more active than most, 
not by anybody's design. But because of where we are, we will 
continue to have that load going forward with the regulatory 
restructuring, for example, a major set of responsibilities for 
us.
    And so what we are asking for is an increase, frankly, from 
16 million to 19 million. It is an 18 percent increase, but I 
think if you look at other committees of comparable size and 
degree of activity, that that is appropriate. And I have always 
felt that the greatest bargain the American people get are the 
people who work for us, people of enormous talent who could be 
making a lot more money in other contexts, maybe not so much 
last year but in a normal situation, and I feel very guilty 
about the extent to which they are overworked. And as I said, 
if you look at the agenda, it is a very heavy one.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Thank you, Mr. Chairman. Mr. 
Bachus, would you like to make any statement?

   STATEMENT OF THE HON. SPENCER BACHUS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Bachus. Thank you, Mr. Chairman.
    The Chairman. Would you put your mic on, please? Just push 
that button.
    Mr. Bachus. I don't think there is just anyone in America 
that doesn't realize the number of issues facing the Financial 
Services Committee. And as the chairman said, there is a lot of 
work, the staff is spread pretty thin. We have been given the 
additional oversight over TARP, which is requiring two full-
time staffers on our side, probably more than that on your 
side.
    So with that I will just----
    Mr. Frank. Let me just add, the ranking member makes a very 
good point. Yesterday and today we have had oversight hearings 
on the commitment of nearly $3 trillion in Federal funds that 
had not been anticipated when our budget was funded 2 years 
ago, because we had the Chairman of the Federal Reserve 
yesterday talking about $2 trillion, which the Federal Reserve 
has committed, which they hadn't expected to do before, using 
authority that hasn't been used since the 1930s. And then today 
we are having a hearing on the second 350 of the TARP. So those 
two items--and again, they were totally off anybody's radar 
screen when we were first funded. It is $2.7 trillion. And we 
all wish that we could say this is the end of it, but we don't 
think so.
    So that is the basis for our request.
    Mr. Bachus. The government has basically gone into the 
quasi-banking business over the last year. In fact, if you look 
back at July of last year, I think Bernanke came to the Hill 
and painted a fairly rosy picture. And just the tumult over the 
last year, and it is in every sector of the financial services 
industry.
    The Chairman. Thank you. Questions, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. Is the 
Secretary of the Treasury testifying before you folks today?
    Mr. Frank. No, we had the eight--we had and will have--we 
have been doing--the eight CEOs of the largest institutions to 
get TARP money. So the Secretary of the Treasury isn't 
testifying, but his money is.
    Mr. Lungren. I was just hoping you might have a little more 
detail than we had yesterday. I was looking forward to what he 
had to say.
    Mr. Frank. May I make a point again? The ranking member 
will know this. One of the things that we have gotten is a 
large number of requests from our colleagues. When our 
colleagues are hit by their constituents with questions about 
the TARP or this or that, they forward them to us. We try to 
respond, but that is another strain on our staff. Frankly we 
have become to some extent kind of a service bureau for other 
Members who are being asked by their constituents what about 
this, that or the other, both in the foreclosure area and in 
the question of new loans.
    Mr. Lungren. As I understand it, there is agreement in your 
committee, one-third, two-thirds----
    Mr. Frank. Two-thirds, one-third. The ranking member can 
obviously speak for himself. I can't remember a dispute we have 
had about how to allocate the funds or how to use staff. I 
believe our staffs get along together very well. There is a 
great deal of cooperation. So I don't think there is any 
problem on that score at all.
    Mr. Lungren. As you mentioned in your opening statement, 
this is a significant increase request that you are making. It 
is one of the larger ones of the committees that we have. We 
have been basically informed by the Appropriations Committee 
that the range in which they are going to approve for 
legislative functions does not encompass all the requests that 
we are having. So we are going to have to make some judgments 
or leave it up to them, and I think this committee, being the 
authorizing committee, ought to do the tough work and make 
those decisions.
    If you were required to do a haircut for the request that 
you have, are there certain priorities you have over others? Is 
there some guidance you could give us as to how you would 
approach that, Mr. Chairman?
    Mr. Frank. Well, Mr. Lungren, our request doesn't 
differentiate. And frankly I would say in our case, the ranking 
member and I have been more reactive. I wish we had the ability 
to say here are our priorities. But we have basically spent a 
year opening the door and people come in and say you have got 
to pass 700 billion in 3 days and you have got this trillion 
and we have got these foreclosures. I think there are some 
things that would suffer if we didn't get the funding. Some of 
the oversight on some of the ongoing organizational activity 
would get hurt. We don't differentiate in our requests.
    Mr. Bachus. Just to tell you the range of--today we had 
testimony consistent from the CEOs, the largest seven financial 
institutions, which is consistent with what the regulators are 
saying to us. And they are saying basically we have got to 
rewrite our entire regulatory system in an effective way. I 
mean, that seems to be the consensus across the board. Systemic 
regulator. So we have housing, we have foreclosure issues. The 
bill that may pass tomorrow has additional housing programs in 
it. The economy turns down and--I mean, I think we all know the 
number of foreclosures--not just residential, but commercial 
and it--probably on a daily basis our staff, because we simply 
can't do it. We will have CEOs of regional banks that come up 
here and some of them are as panicked, as I have seen. 
Developers, car dealers, I mean the auto hearings were in our 
committee, credit. So normally I could say, you know, credit 
availability is more of a consideration than lending or--you 
know, or lending, but is a systemic regulation for housing or 
foreclosures----
    Mr. Lungren. Let me just add this because you brought 
something up, Barney, that is interesting. You say you open the 
door and things come in. You can't totally anticipate because 
you are reactive. We have been talking about the fact that 
while we will approve a 2-year authorization, that it might be 
good for this committee to have committees come back after a 
year and take a look at what has happened. We could get an 
idea, particularly for a committee like yours where you are----
    Mr. Frank. I think respectfully if that had been the case, 
we would have been here a year ago, because it became clear a 
year ago because there was an enormous increase in what we were 
being asked to do.
    Mr. Lungren. You would not be adverse to that if we ever 
make that decision?
    Mr. Frank. Not at all. The Federal Reserve has gone from 
not doing anything to spending--to allocating, lending $1.9 
trillion under authority that dates from the 1930s. And a 
couple of the Republican members point out that there is no 
oversight, that they are exempted from oversight. We have to 
change that. But that is a lot of people. And my Chief of Staff 
reminds me that 96 percent of our budget goes for salaries. We 
are not spending a lot on sort of fancy stuff.
    Mr. Lungren. You don't have to trouble too much. The 
problems come to you.
    Mr. Bachus. I have never over the last 2 years, 
particularly over the last year and a half, our staff has been 
here on Saturday and Sunday, at night and as has the Treasury 
staff and sometimes the Federal Reserve. I get phone calls at 
home on Sunday from the Federal Reserve officials. But our 
staff--the other thing that the chairman mentioned--in fact, 
there was a derogatory article in one of the newspapers that--
about Members of Congress simply--you know, they talked about 
issues that they really didn't grasp. Well, it is absolutely 
right. When you start talking about credit default swaps and 
all this stuff, I mean, so educating the committee is just an 
overwhelming job. It is like----
    Mr. Frank. Would the gentleman yield? Our staffs are 
available to our colleagues and our colleagues' staffs because 
this is--I do think if you look at the Congress, the Committee 
on Financial Services has had a bigger increment of new stuff 
to deal with than anybody else and it is not going away for a 
while.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. Thank you. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. And I hope that the 
chairman and the ranking member take this into account when it 
comes time to timing me in about 15 minutes. A little light. I 
just want to echo what the chairman and the ranking member both 
said. I mean, I am on the committee and I will tell you 
unequivocally, number one, that the staff does a great job. 
They do a fantastic job. They answer every question. If they 
don't know it, they find it out. It is very professional. I can 
echo that 100 percent. I can also tell you unequivocally that 
they are completely overworked because of this new stuff. This 
new stuff is overwhelming to everybody. I don't care how smart 
you are, how much experience you have had in the past, this is 
all new stuff for all of us. And the truth is, I am just 
looking at the numbers and as I count it, even with this 
request, if the requests were granted dollar for dollar and 
every other committee got what they asked for, you would still 
only be the fourth largest budget in the Congress. I personally 
think that is again in today's world probably not the right 
place to be.
    And it amazes me. I think 30 new positions--I am afraid you 
might not be able to get that many positions with the money you 
are asking for. I think you might have to ask for more money at 
some point. Because again, as you just said, I think we have 
had the problem--we definitely have the problem with the SEC, 
we have the problem with the FDA and the PTO. People who know 
this stuff can go out and make a lot more money than we can pay 
them. If we can't keep them, we will be at a disadvantage, 
particularly in the next year or so.
    I for one over the last several years have been very upset 
how Congress as a whole, both bodies, have ceded our authority 
and our responsibility, in my opinion, to the Executive branch. 
I think we continue to do that. I think the only way to get 
back any of our responsibilities and authority is for us to 
have the abilities to simply have a discussion, a thoughtful, 
knowledgeable conversation in debate. And if we don't arm 
ourselves properly with the appropriate people, we will be at a 
disadvantage and it will be to our regret and to the regret of 
our constituents.
    Mr. Lungren. Will the gentleman yield?
    Mr. Capuano. Absolutely.
    Mr. Lungren. Can I put you down as undecided on their 
budget?
    Mr. Capuano. You can, but----
    The Chairman. I am confused. Michael told me he wanted to 
grill you and all you are doing now is patronizing him.
    Mr. Capuano. Damn right I am patronizing him.
    The Chairman. Why don't you tell him in front of your face 
what you are willing to do?
    Mr. Capuano. Oh, no. Because in 5 minutes he is going to 
have the gavel again and I will have be to nice to him.
    The Chairman. Mr. Harper.
    Mr. Harper. Mr. Chairman, how long do you anticipate this 
same level of activity for your committee? Any prediction?
    Mr. Frank. Good question. I believe that at the end of this 
2 years, it should have abated for a couple reasons. First of 
all, we have a major rewrite. You are going to see, I think, 
the most important rewrite of financial regulatory legislation 
since the New Deal probably. People may think one way or the 
other, at least the contemplation. I do think a lot of that 
will be done by the end of this year, by the end of this 
Congress. Similarly, we hope that they may be coming back for 
more money, for something like the TARP. Once again, we don't 
see that as an ongoing effort.
    For a lot of reasons, we hope that there will be an 
abatement after the current crisis. The current crisis comes 
more to the Committee on Financial Services than any other. So 
the answer is if we succeed 2 years from now in getting out of 
this, then our workload will level off and drop some.
    The Chairman. Thank you. Thank you, Mr. Chairman. One real 
quick question. You have the eight CEOs, top CEOs in the 
country?
    Mr. Frank. The which? Yes.
    The Chairman. How did they arrive?
    Mr. Bachus. By hybrid car, donkey, and I think a few----
    Mr. Frank. I read somewhere that a few----
    The Chairman. Did you say donkey?
    Mr. Frank. I read somewhere that they were taking--well, a 
couple of them come from New York.
    Mr. Bachus. One of them we picked up at the Greyhound Bus 
station.
    The Chairman. Hang glide a few to the--listen, you are 
doing a great job under real tough circumstances. Thank you for 
giving us your time.
    Mr. Frank. I appreciate it. I come here because I do think 
our committee has worked very well on a bipartisan basis, 
including I would note the Parliamentarian of the committee 
today is the man who was the Parliamentarian when Mr. Oxley was 
chairman. I think that is an example of the continuity.
    Mr. Bachus. We have bankers from all over. In fact, we get 
calls from the Senate. I won't say the Senator, but he said, 
the folks over here tried to explain something to our bankers. 
They came over, they met with the chairman's staff and my staff 
and they said to us, these guys, these men and women know what 
they are doing. I got a call back from a Senator and he said 
they got the answer they needed.
    I appreciate it.
    Mr. Frank. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Thank you.
    Good afternoon, Mr. Chairman. And thank you for coming here 
today.
    I need you to note that Ms. Lofgren would be here. She is 
stuck in a delegation meeting. She didn't want to show you any 
disrespect by not being here as a member of your committee. But 
we thank you for being here and we welcome you and welcome your 
testimony.

 STATEMENT OF THE HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Thank you very much, Mr. Chairman. I am happy 
to be here and see so many friends of mine. My good friend Dan 
Lungren is here and Zoe Lofgren is on the committee.
    The Chairman. Mr. Chairman, would you just push that 
button? There is a button right there for your microphone.
    Mr. Conyers. All right.
    Chairman Brady and Mr. Lungren, I am here to talk about our 
budget request on Judiciary. Lamar Smith has asked me to ask 
permission to put his testimony in the record.
    The Chairman. Without objection.
    [The statement of Mr. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Conyers. We have talked about it and we find ourselves 
in agreement.
    As is known, the Judiciary Committee is quite active. We 
have had responsibilities in the last 6 to 8 years that have 
called upon us to consider complex activity, the Constitution, 
amendments, the Department of Justice, immigration laws, 
trademark, copyright, patents. It goes on and on. We get a 
large amount of all the legislative measures that come out of 
the committee. We have reported bills, dozens and dozens of 
bills, and I don't want to sound like I am bragging about the 
kind of work we do but you have my statement before you.
    The one new thing that has occurred that is taking a lot of 
our staff and resources is the allegations of misconduct of 
Federal judges. We have an impeachment inquiry going on 
concerning a district judge, and so we have had to create a 
bipartisan task force to work on that.
    The bottom line is that we come before the committee to 
request a budget increase of 6 percent this year and 4 percent 
the year afterward. Ms. Lofgren. And we have a practice--a 
custom in our committee to work on a very bipartisan way. It is 
really more collegial than bipartisan because people take views 
that may be different from what might generally be considered 
the accepted position from where their party might be. But out 
of that tradition has come the practice of shared employees; 
that is, employees who don't work for one side of the aisle or 
the other. They are doing common work that is not partisan, and 
it has worked quite successfully. It started--well, actually it 
goes back to the Rodino days, the Brooks days, there were some 
others, chairmen that have always practiced it. And so have I 
in the one term that I have been privileged to be the Chair of 
the committee.
    So what we are doing now is honing our technology, our 
workforces. We have equitable arrangements in terms of the 
allocation of resources and I think our requests are 
reasonable, and we seek the support of this committee in 
allowing us to proceed in the manner that we have for so many 
years before I was chairman. This is the one committee that I 
have been on all my life in the committee. It was John 
McCormack in Ways and Means. I got on the committee when I came 
to the Congress, and finally in the 110th I became its 
chairman. And I am very privileged to be working with the men 
and women who serve on the Judiciary Committee, and I hope that 
our presentation with Lamar Smith will continue to win their 
approval and yours as well.
    So I thank you all very much.
    [The statement of Mr. Conyers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. First of 
all, let me say that I understand that Mr. Smith intended to be 
here but he was interrupted in his duties today and cannot be 
here. But he has a statement that he is submitting for the 
record and it is in support of the request for this committee.
    Having served on this committee all my years in Congress, I 
must say that it is done on a collegial basis. We have maybe 
the strongest adherence on either side of just about every 
issue. So in some ways we don't call it bipartisan, but we can 
call it collegial. And the chairman has always been a gentleman 
in the way that he operates the committee. And his statement 
reflects the fact, as does Mr. Smith's, that there is a one-
third, two-thirds on all but the shared employees, and that 
there is an understanding of the allocation of other resources 
on the committee as well that is acceptable to the minority. I 
take that to be the case, Mr. Conyers.
    Mr. Conyers. Exactly. And the committee does have a good 
deal of work. You are above the average in the request overall 
compared to other committees, believe it or not based on our 
calculations, but you have explained why, the seriousness of 
the issues and the multiplicity of the issues we have.
    Let me just ask this. We are going to be circumscribed by 
what we do by what the Appropriations Committee does and the 
indication we got is that we cannot grant all the full requests 
made by all the committees and therefore if we just go ahead 
and do that, the Appropriations Committee will make the 
judgments as opposed to us. So it is going to fall upon us to 
make some tough decisions.
    If we were to do some haircuts in the judiciary area, are 
there priorities or is there some methodology that you and Mr. 
Smith have talked about in terms of where you would have to 
make adjustments?
    Mr. Conyers. I can't say that we have, Dan. We never talked 
about what if we didn't get our request. I didn't realize ours 
were above average in our submission. But he and I could do an 
examination and get such a list to put in the record just in 
case we come to that. I don't want to----
    Mr. Lungren. I don't want you to make you commit on that 
right now. What I would ask is this, then. There has been some 
discussion in this committee as we listened to the other 
committee recommendations or requests that while we will have 
authorizing legislation with respect to funding for the entire 
Congress, that we believe it might be appropriate to have the 
committees come back to us at the end of this fiscal year, at 
the end of this year, to revisit where we are, both to see how 
the requests have stacked up against the work that the 
committee has done and also see if there is changed 
circumstances with respect to what the committee might need. 
And I would take it you would not be adverse to that?
    Mr. Conyers. Not at all. Not at all. You know, I have 
always had a good relationship with this committee and I 
realize your work--I mean, I understand that you probably get 
requests that in the aggregate exceed what you are able to do 
anyway. But I have never had any problem with the decisions 
that have come out of this committee, nor have I had any 
problems ever inside the committee in terms of the allocation 
of resources and funding and equipment or anything else we have 
had. And, of course, those of you who are members know this as 
well as I do, and I am going to abide by what happens.
    I just hope that in this big notebook that I skipped over 
that there is enough logic and rationale for what we are asking 
for and perhaps a review of any way that we have handled our 
budget before now that will guide you in terms of us being 
reasonable about what it is we are doing and how we propose to 
get there.
    Mr. Lungren. Thank you very much, Mr. Chairman. Thank you.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman. I am sorry I was a little bit late. I was over in the 
Capitol trying to assist on the stimulus plan, which looks like 
it is proceeding in good order.
    I would first like to compliment you, Mr. Chairman, for the 
leadership that you have shown. Oftentimes the issues that are 
before the committee are contentious, but the relationship you 
have developed with the ranking member and the other members of 
the committee has never been contentious. And it is a real 
credit to you, as well as to Mr. Smith that even as these 
issues that divide us sometimes come up, it has never been 
divisive in terms of personality or anything of that nature. 
And it is really a credit to you, and I appreciate it.
    Mr. Conyers. Thank you.
    Ms. Lofgren. One question I have--and as you know, I chair 
the Immigration Subcommittee. And I have just taken one of the 
counsels from the subcommittee to move over to Ethics. So we 
are going to need to fill that spot. And I want to make sure 
there will be enough funding actually to do that. And I am also 
concerned--you have had the greatest detailee from the 
Department of Justice who has been such a help not only to you 
but to all of the rest of us, whether it is on FISA or 
immigration, and he obviously has--may very well go to the 
administration. So I don't know whether we get another detailee 
or do we have enough money in the budget if you have to hire 
somebody to backfill for him? This is a little bit more, but I 
think it is well justified. I have served on the committee for 
a long, long time and I want to make sure that the resources 
that you have are adequate, at least in those two areas that I 
have mentioned.
    Mr. Conyers. Could I just ask my Chief of Staff, Perry 
Applebaum. I don't have a specific answer for that, but if I 
could just check with him. Are we covered in case we lose a 
staffer to the administration?
    Mr. Applebaum. Yeah. The idea would be to treat all the 
subcommittees equally, but we would hope to get either a 
replacement detailee or figure out something.
    Mr. Conyers. We would never let the Chair of the 
Immigration Subcommittee down under any circumstances.
    Ms. Lofgren. I know that that is true, Mr. Chairman. Well, 
since we are going to be coming back again at the end of the 
fiscal year, if there is a problem, we will have an opportunity 
to address it then. And, again, I just say these words with 
tremendous admiration for you and gratitude that I have had a 
chance to serve with you, Mr. Chairman, and I yield back.
    The Chairman. Thank you. Mr. Harper.
    Mr. Harper. Chairman Conyers, I just want to tell you it is 
an honor to serve with you on Judiciary and I just wanted to 
tell you I appreciate the fair way in which you handle our 
hearings.
    Mr. Conyers. Thank you. And welcome aboard.
    The Chairman. Mr. Capuano.
    Mr. Capuano. I just want to thank you, Mr. Conyers. I think 
he has done a great job and I think he has restrained himself 
quite admirably in the last 2 years, and my hope is that 
restraint comes off in the next 2.
    Mr. Conyers. Could I just say to Mr. Capuano that the one 
thing that I have learned is that to have an honest exchange of 
views where there are very different opinions, it is best to be 
fair. The more reasonable you are, the more likely you are to 
have your direction acceded to. So I hope I continue to be 
considered a nice guy because it works better than not being a 
nice guy. I mean, let us just--maybe I have a different 
experience from others, but to me to take advantage of the 
parliamentary process or the numbers of the committee and, you 
know, straight ahead with the torpedos, it doesn't work. And in 
an atmosphere where such incredibly important ideas are being 
examined, frequently constitutional in nature, I mean to have 
an honest exchange, to know that you can come to a place and 
your view will be heard and that you will be given 
consideration regardless of how much it may differ from the 
chairman's or the majority or whoever, to me makes everybody 
more amenable to working out sometimes when there has to be a 
compromise.
    So I appreciate always--you know, we are not short of 
members here that have a Judiciary Committee experience. So I 
feel I am in safe hands here this afternoon.
    The Chairman. Thank you, Mr. Chairman. I also think you are 
a class guy. Thank you.
    Mr. Conyers. Thank you, sir.
    The Chairman. Good afternoon, Mr. Chairman, Mr. Ranking 
Member. Thank you for being here today, and we look forward to 
hearing your testimony.

 STATEMENT OF THE HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Oberstar. Thank you, Mr. Chairman. This microphone is 
really loud or live.
    We greatly appreciate the opportunity to come and present 
our budget proposal for the coming 2 years of the 111th 
Congress. Thank you, Mr. Lungren, for your participation, and 
that of all the members, and, Mr. Mica, my partner in the 
Transportation and Infrastructure Committee. We are the largest 
committee in the House, the largest committee in either the 
House or Senate. And in the 110th Congress we made 
extraordinary progress on the many issues under the 
jurisdiction of our committee. We passed landmark legislation 
on rail safety, the first overhaul of rail safety in 100 years; 
the authorization of Amtrak, including high-speed rail--I call 
the Mica-Brown--Brown-Mica-Oberstar Passenger Rail Initiative, 
which is going to transform the landscape of passenger rail 
service in America. We had the first override of a Bush 
administration veto, only the 107th in the history of the 
Congress, on the Water Resources Development Act. We 
implemented the 9/11 Commission recommendations, we enacted 
legislation for energy efficient transportation, public 
buildings energy efficiency, the greening of the Department of 
Energy headquarters with a photovoltaic roof, a project that 
has languished for 12 years--actually 30 years. I started that 
over 30 years ago. And we had 26 markups of 143 bills and 
resolutions passed the House, 93 of which became public law.
    We held very vigorous, in-depth oversight in investigative 
work in hearings on the agencies and programs under our 
jurisdiction. We found serious lapses in the Coast Guard's 
management of the Deepwater Program, putting to waste literally 
$100 million of taxpayer funds, the result of which was to 
change the Coast Guard's contracting program and make it more 
efficient and more responsive for the future.
    We conducted oversight of the FAA's oversight of 
maintenance by the airlines. We found regulatory lapses and 
abuses of their partnership program. We held oversight of the 
Federal Motor Carrier Safety Administration, management of the 
drug and alcohol program, medical oversight of commercial 
drivers, and Homeland Security Department's management of the 
Federal Protective Service, which also comes under jurisdiction 
of our committee.
    In all, we had 174 hearings, 1,245 witnesses, 588 hours of 
hearings, and including I can say, having served on the 
committee for 44 years as staff and as a Member, the most 
active 2 years in the committee's history. We will have an 
equally challenging agenda in the 111th Congress. We have a 
hearing this afternoon on the FAA reauthorization which we 
already passed in the 110th Congress in September of 2007. The 
Senate didn't act on it. We have to update that legislation and 
make some adjustments. We will have the hearing this afternoon, 
have the markup following the Presidents Day recess, bring the 
bill to the House floor for early March so we can get this bill 
in conference with the Senate before the end of March and get a 
bill to the President for signature.
    We have the new--what I would call a transformational 
surface transportation bill, a 6-year authorization of the 
program's highway--bridge and highway safety and transit. In 
2005, the committee moved a bill authorizing $286.3 billion. We 
have to go far beyond that to meet the transportation needs of 
the country out into the future, and we have had intensive 
hearings in the Surface Transportation Subcommittee and in full 
committee on the various proposals from all sectors, evaluating 
the operational effectiveness of existing law and getting ideas 
on how to craft a meritorious future for--a transformational 
future for surface transportation in this country.
    We will again revisit the Coast Guard authorization bill 
which passed the House, but typically didn't pass the Senate. 
That is an $8.5 billion program. We need to move that 
legislation again. We are preparing to do that. We will do so 
expeditiously.
    The range of other programs, we will have another Water 
Resources Development Act to upgrade our inland waterways, 
provide protection against flood and flood damage and levies, 
continue our work in the restoration of the wetlands of the 
Gulf and the harbors on the Great Lakes where drought has 
limited the ability to deliver iron ore to our steel mills and 
coal to lower lake power plants. Those harbors have been 40 to 
48 inches low, meaning iron ore carrying vessels, coal carrying 
vessels, sand and gravel operations have had to make three 
extra trips per voyage--per season--I am sorry--raising the 
transportation costs of the materials carried. We need to move 
the Corps of Engineers ahead vigorously on deepening those 
ports and overcoming years of neglect of dredging. We will have 
reauthorization of the Water and Wastewater Treatment State 
Revolving Loan Program, which passed the Congress--the House in 
the 110th Congress, but again the Senate didn't act on it.
    All these were bipartisan bills that Mr. Mica and I worked 
on very closely and very cooperatively and productively. Our 
budget is essentially the same budget as we had in the 110th 
Congress with a 5 percent cost of living adjustment, which is 
equal to that of the Federal Government for Federal employees 
and equal to or just slightly below the Consumer Price Index 
increase, 5 percent this year and 5 percent for next year. That 
would be roughly $500,000 a year. And our budget also provides 
for the Republican members of the committee under Mr. Mica's 
leadership to receive one-third of the salary budget. We will 
not have a separate minority budget for travel and equipment as 
we have done in the past under Republican leadership in the 
previous Congress. But we have worked on travel requests and 
needs cooperatively, and we will do so in the future.
    And I thank you for your consideration of our request.
    [The statement of Mr. Oberstar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman. Mr. Mica.

    STATEMENT OF THE HON. JOHN L. MICA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Mica. Thank you, Mr. Chairman. And it is good to be 
back, and I am glad that you have risen to the position that 
you have, having been up on the dais and served on the 
committee.
    The Chairman. Thank you.
    Mr. Mica. I always like your style. No BS. You have cut 
right to the chase and got things done. I appreciate what you 
have done so far in that regard. I truly mean that.
    I was looking at Thomas here. How come you don't have that 
drape? I remember Thomas and Steny Hoyer, you all--I don't know 
if you all were here when they used to go at it. Dear God, I 
felt like I was a referee in a food fight.
    The Chairman. We have been getting----
    Mr. Mica. Lungren, he is a lovable ranking member. But 
thank you all. And Jim Oberstar has really said what needs to 
be said on behalf of the committee. We support the request.
    I will say with a caveat on the increase, we are trying to 
ask people to cut back and if we had to go to a lower increase, 
I could be supportive of that and I think we ought to look at 
the end--I know you are going to look at the end of the year 
and see what we can do to tighten our belt, too. So I would be 
supportive. Travel, we do have our little issues on that, but 
we try to work them out. I wish we had a little bit more 
independence on that on the minority side. But it is the 
biggest committee in Congress. We are very proud of our work 
record and bipartisanship, reaching across the aisle and 
getting things done. So I am with Mr. Oberstar on this one.
    The Chairman. Thank you. Mr. Lungren.
    Mr. Lungren. Thanks very much. And I appreciate the two of 
you and the work that you do and the testimony that you 
presented.
    So the one-third, two-third there is no disagreement on 
that, but there is some disagreement on travel? I am trying to 
figure out what we are talking about here.
    Mr. Oberstar. I simply continued the practice of the 
Republican majority in previous years which, there are certain 
limitations on travel by minority, and I kept that practice in 
place.
    Mr. Lungren. Did you talk about that? Did you two work on 
that?
    Mr. Oberstar. Mr. Mica has a travel request. He comes on 
behalf of the ranking members. We also had a majority member 
who was not a subcommittee Chair, make a request for 
congressional delegation travel authority, and I denied it 
because only subcommittee chairs and ranking members have 
congressional travel delegations, official delegation travel 
with the committee. So that has been our practice. When 
minority members have requested--minority ranking members have 
requested travel authority on specific committee business, Mr. 
Mica and I have had discussion; we have worked it out.
    Mr. Lungren. Mr. Mica?
    Mr. Mica. We are working on it.
    Mr. Lungren. Okay. We are working on it.
    Let me ask this: Because of the economic uncertainty we are 
in right now and because all the requests of all the 
committees, if we were to grant them all, it would be in excess 
of what the Appropriations Committee is going to allow us to 
have. So either we exercise our discretion here and try and 
figure out where we have to give haircuts, or we just leave it 
up to Appropriations. And we think we have the responsibility 
to do that, so we are going to exercise our best judgment.
    However, in consideration of that and while we make 
decisions with respect to the 2-year authorization, there has 
been discussion on this committee to have the committees come 
back to us at the end of the fiscal year so we can revisit 
where you are, how you have proceeded, how the plan that you 
have is working out in terms of funding, and see what we might 
look at for the following year--if there were any changes that 
were appropriate.
    Would the two of you entertain that as something you would 
not be adverse to?
    Mr. Oberstar. I would welcome that opportunity. I think it 
is a great idea. In our committee we are requiring that kind of 
oversight and accountability for all the Federal agencies under 
the jurisdiction of our committee in the stimulus initiative. 
This is our waterfall of compliance, of accountability. Every 
30 days we are going to require the relevant Federal agencies 
come before our committee collectively and report on the 
contracts awarded, the personnel at work, the job descriptions, 
the payroll.
    We are going to do it every 30 days, so if you want to have 
accountability----
    Mr. Lungren. Not every 30 days, but----
    Mr. Oberstar. I will be happy to join my colleague in the 
congressional hip replacement caucus in that endeavor.
    Mr. Lungren. We do have--a lot of people don't realize that 
every committee does submit a report on a monthly basis. But a 
lot of that appears to be boilerplate. I am not criticizing any 
particular committee, but I think there hasn't been enough 
focus on that.
    But one of the things--some of us have discussed it might 
be important to have the committees come back at the end of the 
year so we can revisit what we are talking about here today.
    Mr. Oberstar. We will have a great record for you to show.
    Mr. Lungren. I appreciate that.
    Mr. Mica. I might say that this year in particular is 
probably going to be one of our busiest because we do our 6-
year reauthorization, and we probably--I have already ramped 
up, I know, with one person. We may have to ramp up with 
additional to get through this.
    So we are going to be very busy this year. This is our 
busiest season in the committee. But looking at it afterwards, 
I think, just like everybody else, we need to be frugal with 
taxpayer dollars and revisit it.
    Mr. Lungren. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Lofgren? Mr. Capuano?
    Mr. Capuano. I just want to echo the chairman's comments. I 
know how hard they are working and how good the staff is. I am 
looking forward to the coming year, I know that. I think we are 
going to get a lot of work done. Everybody here is going to be 
happy, and America will be happy when we are done.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Just one question. And first, thank you, the 
two of you, for the excellent work you have done and are going 
to do.
    I think we are about to come to a conclusion on the 
Recovery Act, and certainly there will be infrastructure funds 
in that, some of it transportation. We can argue about whether 
it is enough or not. But I am wondering in your oversight plan 
whether you are going to take a look at how that funding stream 
is being put out the door and that sort of thing. Is that in 
your work plan?
    Mr. Oberstar. That is exactly what I said a moment ago.
    Ms. Lofgren. That is what you meant on that?
    Mr. Oberstar. Yes. We have put the State DOTs, the 
municipal transit agencies, the metropolitan planning 
organizations on notice to expect oversight hearings from us, 
and for them to prepare reports, and specify exactly what we 
want in that report.
    And as I said, we had hearings last year, and another one 
in October, had another in January and brought in the State 
DOTs. And they all understand, and the transport agencies and 
the airport authorities all understand that they are 
accountable.
    Half of that $30 billion has to be out the door in 90 days, 
under contract or obligated, or they lose the money and it goes 
to other States that can use it; and we are going to rigorously 
oversee this. It is not difficult. With flash drives and 
accountability programs in most of the States--not all of 
them--we will be able to have almost a day-to-day, certainly 
week-to-week, accounting of what the States are doing.
    This is Illinois DOT. They have a planning cycle that is on 
their flash drive, and they will have bid lettings every 2 
weeks from 10 days after signing of the bill into law, from the 
time the Office of Management and Budget allocates money to the 
Federal Highway Administration, and within that 7 days.
    Within 10 days the State DOTs will be notified by Federal 
Highway Administration of their proportional allocation under 
the program, under existing SAFETEA law, and then they will 
begin the process of bid lettings. We are going to be following 
those and have full committee oversight reports on all of the 
agencies--the Corps of Engineers, the FAA, the Coast Guard; 
they didn't leave any money in the St. Lawrence Seaway. Federal 
public buildings, GSA is going to report to us.
    It is going to take a lot of work.
    Mr. Mica. Let me just add, Mr. Oberstar and I, we have been 
working on stimulus since last fall, I think it was. In our 
discussions, too, we are very committed to this not being a 
TARP, one where you wake up and say, Where the hell did the 
money go, and nobody has an answer.
    So we are both committed to very rigorous oversight, and 
that will take some personnel.
    Ms. Lofgren. If I may, that sounds terrific. And I am 
assuming that the oversight results will be put on your Web 
sites so all Americans can see where we are.
    Mr. Oberstar. Oh, yes.
    Ms. Lofgren. And one of the things--as you are aware, many 
of the cities and counties are very concerned that States might 
have a small carrying fee. And it seems to me that your 
oversight is one of the guarantees that we have, that that 
concern is not realized and that the money actually does flow 
to the projects as we have intended.
    So I do thank you very much.
    Mr. Oberstar. I will read you some language here:
    ``The following powers and duties: A division of progress 
investigation to ensure the honest execution of the work 
program, requiring uniform, periodic reports of progress, 
appropriate measures to eliminate delay, recommend termination 
of projects where they are not providing the jobs warranting 
their continuance.''
    That is from Franklin Roosevelt's order in 1935 
implementing the Works Progress Administration.
    Ms. Lofgren. And that will be your guide?
    Mr. Oberstar. It is not new, but we are updating it.
    And Mr. Mica and I are completely in accord that we are for 
infrastructure as stimulus, but we are also for accountability, 
measuring progress, ensuring that the jobs are done.
    And I have told these DOTs--and Mr. Mica was with me on 
this--this is dress rehearsal for the next authorization. If 
you don't do it right now, if you don't get this program right, 
then how can we trust you to get it right under the 6-year 
program?
    Ms. Lofgren. Thank you, Mr. Chairman. I will yield back.
    The Chairman. Mrs. Davis, questions?
    Mrs. Davis of California. No.
    The Chairman. Thank you, Mr. Oberstar.
    Thank you, Mr. Mica. Thank you for being here.
    Good afternoon.
    Mr. Towns. Good afternoon, Mr. Chairman.
    The Chairman. Committee on Oversight and Government Reform. 
Chairman Towns and Ranking Member Issa, thank you for appearing 
before us today and we look forward to hearing your testimony.

   STATEMENT OF THE HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much. I am pleased to testify 
with the committee's ranking member, Darrell Issa. As the new 
Chair of the committee, I have worked closely with Mr. Issa in 
developing this budget, and I intend to continue the 
committee's tradition of allocating one-third of the 
committee's budget to the minority.
    I know Mr. Issa feels as strongly as I do about the 
importance of the committee's oversight agenda, and he will 
discuss his specific budget concerns separately. However, the 
ranking member, and I intend to work in a bipartisan fashion on 
a number of important oversight and legislative issues, such as 
the economic recovery legislation now under consideration by 
Congress and the Troubled Asset Relief Plan.
    These two programs alone will cost the American taxpayers 
over $1.5 trillion. An article in Monday's Washington Post 
discussed the potential for billions of dollars of waste in the 
implementation of the recovery legislation. In view of the 
inadequate Federal procurement staff available at most 
agencies, the committee will play a critical role in helping to 
limit the mistakes that were made during the rebuilding efforts 
after Hurricane Katrina, when only about 30 percent of the 
contracts met the requirements for full and open competition, 
and in Iraq where frequent overcharges to the Federal 
Government were commonplace.
    Last week, Elizabeth Warren, head of the congressional 
oversight panel, testified that the lack of transparency in the 
Treasury Department led it to overpay $78 billion--that is 
``B'' as in boy--for the purchase of banking assets.
    The committee staff has already begun to work with the 
special TARP inspector general to develop an effective 
partnership to increase transparency and accountability in this 
important program. The current economic crisis, the fragmented 
financial regulatory system and inadequate Federal acquisition 
staff make the work of our committee more important than it has 
perhaps ever been.
    We have an aggressive oversight agenda. However, we won't 
be able to do what the Congress and the public expects from us 
without the adequate funding that is necessary. To meet our 
oversight and legislative demands, the committee is requesting 
a 10.9 percent increase over last Congress.
    I understand that House Administration has a difficult task 
of restoring the committee budget while balancing the number of 
competing priorities. If budgets were not so tight, we would be 
asking for more money in view of the committee's agenda.
    As you consider our funding requests, I would ask you to 
consider three points:
    First, the savings that we anticipate in identifying waste, 
fraud and abuse will more than pay for itself;
    Second, the manpower we need to accomplish this savings is 
labor intensive and requires a significant investment in high-
quality staff; and
    Finally, Mr. Chairman and members of the committee, it is 
incurring costs associated with the transition between Chairs 
that we also have to consider.
    And thank you for this opportunity to testify before the 
committee, and I look forward to working with you in the 111th 
Congress as we go out and identify waste, fraud and abuse.
    The Chairman. Thank you. Thank you, Mr. Chairman.
    [The statement of Mr. Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Issa.

  STATEMENT OF THE HON. DARRELL E. ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Mr. Chairman, Ranking Member Lungren.
    I join with the chairman in this request. The request is 
intended to be at a rate of inflation set by this committee and 
the Appropriations Committee. We felt, in light of the huge 
budget deficits, we had very little choice but to live within 
our means and find ways to work better.
    Certainly one of the efficiencies that we hoped would allow 
us to live within our means is Chairman Towns and myself 
leveraging our staff to work together. Rather than doing two 
things, we are going to be often working together, sharing 
information. We believe this will give us the ability to 
operate more efficiently. That spirit of bipartisanism started 
today, when we had our organizational meeting and moved a 
number of important pieces of legislation out of our committee 
expeditiously and with--in every single case, although with 
amendments, unanimously.
    Mr. Chairman, Ranking Member, as you know, we are the 
committee of primary oversight. And although the Rules of the 
House now have added additional requirements for every 
committee, we are the committee that has no conflict of 
interest. We are not the primary legislative committee for 
almost any of the things that we do oversight on; particularly, 
we are not the legislative committee for TARP, for the 
stimulus, for appropriations in general; and yet our oversight 
is the most independent. We are the committee that can 
transcend jurisdictional lines that often cause one committee 
to demand a sequential referral, even if they only have a small 
amount, or to be offended when they don't get a piece of it or, 
often, hold two hearings. We believe we are the most efficient 
place to look over these funds.
    To that extent, Mr. Chairman, I have sent you a letter 
which I hope you have had an opportunity to review. Recognizing 
that additional funds are not available, our letter does ask 
for an authorization of 30 additional positions. We recognize 
that without additional funds we may not be able to fill all 
those positions; but given the authorization, the ability to 
look over the $700 billion worth of TARP funding, the stimulus 
package, TARP II, and moneys beyond, we may be able to 
creatively find people who, in fact, can work on a temporary 
basis for less money.
    So over the next 2 years, we would hope to recruit on a 
bipartisan basis to fill those slots with as many people as we 
can find who share with the chairman and myself the vision that 
government only does well when government looks after and 
oversees, and that the private sector does not improve based on 
hearings alone. They improve on real investigations, something 
that our committee is uniquely capable to do.
    So I would ask respectfully that you consider the 
chairman's mark for the funding, which is limited to the rate 
of inflation--or at least our perception, and it may be 
increased or decreased based on yours--but that you grant us 
those supplemental slots so we can work together to find people 
within our means that would allow us to do more of the work 
necessitated by this very difficult series of expenditures that 
Congress has felt necessary to make.
    With that, we welcome your questions.
    [The statement of Mr. Issa follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I thank the two of you for your testimony. And I would like 
to pick up on something that you mentioned, Mr. Issa, and that 
is that under the new House rules that we have adopted, every 
committee is supposed to engage in vigorous and continual 
oversight. That is essentially a pledge that is being made 
under the rules.
    In fact, this committee, since we have responsibility over 
all the committees in terms of budget, probably need to reflect 
on that. So I guess the question would be, as we are attempting 
to try and perform oversight, and we are also facing a tough 
economic circumstance right now, what do we say to the public 
with respect to your committee in doing oversight versus the 
other committees? Isn't it an example of committees getting in 
the way of one another? Or is it a way of letting the 
authorizing committees off the hook for their oversight?
    How do you view it as a complimentary--I guess that is the 
word I would use--complimentary effort by your committee vis-a-
vis the regular authorizing committees?
    Mr. Towns. Right. Well, first of all, I think there is a 
lot of waste, there is a lot of fraud and a lot of abuse. I 
think it is enough for everybody to go look. And we don't have 
a problem with that.
    However, it is our obligation and the responsibility of our 
committee because that is our function; and of course, we plan 
to carry it out, and we will be assisting others because of the 
fact that that is our role. And, of course, our ability to be 
able to subpoena, to pull people in, I think that also will 
help us to be able to facilitate these things.
    But the point is that waste, I think, fraud and abuse is 
something that is going on; and a lot of it is because of the 
way certain agencies are structured. They have the inspector 
general in the agency, and the way that the inspector general 
has to report to the director or the Secretary; and of course, 
if the inspector general is looking at something that the 
director or the Secretary does not want the person to look at, 
they can cut the budget, terminate him, do all kinds of things.
    So our committee would be able to sort of go in and look at 
this and be able to pick it up.
    So one thing we hope to do is to be able to make IGs 
independent. I think that is important, and that is something 
that we can push from our committee; and also the possibility 
of legislation, as well.
    Mr. Issa. Ranking Member Lungren, basically we are a 
committee that spends about 10 percent of its resources, 
majority and minority, on administrative personnel. About 10 
percent on legislation that falls within our purview, primarily 
postal, and about 80 percent--50 percent directly on 
investigators.
    So I think the answer to your question is, we hire 
primarily attorneys to do investigations, and those 
investigations are not just used by our committee. They are 
referred to every committee of the Congress because our 
research becomes the source material often for their 
legislation.
    And as the chairman said, the Bush administration, for 
example, left 13,000 reports of waste, fraud and abuse 
unanswered when they left office. There is more than enough for 
all of the committees in Congress to dig into.
    Mr. Lungren. Let me just ask this question, because I could 
get asked this by my constituents, and it was kind of a red 
flag out there.
    They say, what are you guys doing bringing baseball players 
up and asking them about using steroids? And then they say, now 
I see Congress wants to get in the business of deciding whether 
or not the NCAA ought to have a playoff. And what I am saying 
is, those big headlines came out of your committee with respect 
to baseball. How do I share with them, that we are not--not 
that I think steroids are good in baseball. Believe me, I was 
the first Member of Congress ever to introduce legislation, 
making steroids on the controlled substance list.
    But what do I say to my constituents that then say, well, 
that is the committee that did that, and you gave them a raise, 
and so forth? How do I tell them your focus is really going to 
be on oversight?
    Mr. Towns. Yeah. Actually, we were going to be looking at 
TARP. We are concerned about that. I really don't think that 
baseball players should use steroids, but that is not something 
that I would give priority to. I think there are so many other 
problems out there that need to be addressed, and I think that 
we need to address them.
    When we look at the fact that people are unemployed because 
of waste, fraud and abuse, I think that we need to go after 
that first. And then if we have any time after we get rid of 
all waste, fraud and abuse, then we would go look at steroids 
and go look at--but the point is, I don't see that as a 
priority for this committee at this particular time.
    Mr. Lungren. See, I think if the public just thinks you are 
doing oversight and tough oversight, you will have no problem 
with the support of the public, and I won't be getting 
questions from my constituents as to why you are doing what you 
are doing; and I just wanted to hear that.
    And just one last thing----
    Mr. Issa. By the way, that has been referred to the Energy 
and Commerce Committee. We no longer claim jurisdiction on 
baseball and steroids.
    Mr. Lungren. I won't get into that.
    Mr. Towns. We need money to help us with the transition.
    Mr. Lungren. There has been discussion on this committee 
about the fact that we are, in a sense, making these decisions 
for a 2-year authorization expenditure for--at a time when we 
have tough economic circumstances. And we are really not sure 
of what the future holds for us in the next couple of years.
    So our thought--at least we have been discussing this on 
the committee today--is that we would ask the committees to 
come back to us at the end of the fiscal year and we would 
review how you spent your money, what your priorities are, have 
circumstances changed and you need different priorities and 
some flexibility. Would you be adverse to that?
    Mr. Towns. No. I would be glad to do it.
    Mr. Issa. We would be glad to come back and give you a 
count of the tens or hundreds of billions of dollars we can 
show our money leveraged in savings to the government. 
Absolutely.
    Mr. Lungren. Thank you very much.
    The Chairman. Ms. Lofgren, Mrs. Davis, any questions?
    Thank you both of you for coming. Appreciate your time.
    Mr. Towns. Thank you, Mr. Chairman.
    Mr. Issa. Thank you.
    The Chairman. Good afternoon. The Committee on Education 
and Labor, Chairman Miller and Ranking Member McKeon. We 
appreciate your time coming here and testifying in front of us, 
and we are looking forward to your presentation.
    Mr. Miller. Thank you. Thank you, Mr. Chairman. My senior 
Republican member, Mr. McKeon, said our goal is to get you back 
on schedule. We will see what we can do.
    The Chairman. That will go a long way in our decision-
making.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much for the opportunity to 
appear before the committee and to present our budget 
requirements to this committee for funding.
    The budget request that we submit today represents a 9.7 
percent increase over the committee's allocation of the 110th 
Congress. This increase is reflective of the committee's actual 
spending practices, based upon spending over the last 2 years, 
and near utilization of the full number of staff slots in the 
110th Congress. Excluding the cost of living increase, this 
amount represents a 1.1 percent increase over the committee's 
allocation in the previous Congress.
    The workload of the 111th Congress will surpass that of the 
very productive 2 years this committee had when we doubled the 
number of hearings, held 19 markups and saw 54 pieces of 
committee-referred legislation become law.
    The committee has again planned a vigorous legislative and 
oversight schedule in this Congress, including the 
reauthorization of No Child Left Behind, the National and 
Community Service Act, child nutrition programs, and the 
Workforce Investment Act.
    The committee also plans to play a major role in the 
formation of health care reform plans of President Obama's 
administration, and work to better ensure the retirement 
security of America's workers.
    This budget reflects that workload of this committee, and I 
believe that we can carry it out. As I pointed out, the largest 
increase in the budget request we submit today is the cost of 
living adjustment of 4.78, calculated by the Office of 
Personnel Management, for the personnel expenses in the first 
and second sessions of the 111th Congress.
    And now I would like to turn it over to Mr. McKeon.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Ditto. Ditto.
    Mr. McKeon. Look at the Californians. We can take over this 
place.
    The Chairman. I am all by myself.

      STATEMENT OF THE HON. HOWARD P. ``BUCK'' McKEON, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McKeon. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify before the Committee on 
House Administration.
    I appreciate that Chairman Miller has followed the past 
practice of the committee in the budget development process and 
has provided me total autonomy over how my share of the budget 
is used. I am also pleased that our proposed budget meets the 
goal of providing one-third of the funding and staffing to the 
minority.
    I am also pleased that Chairman Miller has maintained our 
past practice of sharing our information technology staff and 
additional support staff. This will continue to ensure that 
both majority and minority stay current with advances in 
technology.
    Our committee anticipates an extremely active agenda in the 
111th Congress. A funding increase will enable us to carry out 
the necessary functions of a successful committee, which in 
turn will allow us to fulfill our responsibility to this 
Congress and the people of the United States.
    Thank you for allowing me to testify. I would be happy to 
respond to any questions.
    The Chairman. Thank you.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman. Nice to have both of 
you here.
    Mr. Miller. Thank you.
    Mr. Lungren. And it is nice to be able to find agreement on 
another subject with you, George--that you think Buck is a good 
guy. That is great.
    Let me just ask this: We basically have been informed that 
the Appropriations Committee is not going to grant--if we were 
to grant every request that is made here, in total, that would 
be in excess of what the appropriating committee is going to 
give us. So we either have to say we are not going to exercise 
any judgment whatsoever and they can make it, or we can do it 
as the authorizing committee. I think we ought to do that.
    In that regard, we have to make some tough decisions. And 
my question is, given the fiscal approach that you used, trying 
to keep costs down and so forth, if we had to give a haircut to 
your committee, along with some other committees, in terms of 
the request, is there a prioritization that you have 
established that you would make a judgment with respect to 
that?
    Would it be across the board? Can you give me some idea on 
that?
    Mr. Miller. I don't know that I can intelligently answer 
that question today. But, obviously, if that is the situation 
we find ourselves in and we recognize this is the first step in 
the process, and then, you are going to receive all the 
testimony you have received, and you will have to sit down and 
make some tough decisions about it.
    And I know there are committees that have asked for 
expansion and changes that are far beyond what we are talking 
about. We will just have to see how we live in that universe.
    But I think Buck and I both would be prepared to do our 
share if that is necessary. We have tried to run a pretty tight 
ship. I think we had the lowest requests coming in the last two 
Congresses and we have been able to meet our workload.
    We, obviously, like I think most of the committees, expect 
a heightened workload with the new administration, with the 
kinds of programs that are being put before the Congress. We 
would certainly take a look at that, but I don't know how I 
would prioritize that.
    I would certainly want to talk to the staff before doing 
it. But either way, we would figure out how we would live with 
it.
    Mr. McKeon. One thing that I have found is, every committee 
operates differently. We have all served on different 
committees. And one thing I would like to point out is, our 
committee is really like two committees. We have all education 
law; we have all labor law. So you really need staff that are 
skilled in both areas.
    So if you could just keep that in mind as you go through 
the process, I think it would be helpful to us.
    Mr. Lungren. That is an interesting point you made, Mr. 
Chairman. You were among the lowest. I reviewed this in the 
last three Congresses. Your committee is actually third lowest 
cumulative of all the committee requests that we have had, that 
were actually granted. So you have been in that ballpark; there 
is no doubt about it.
    Mr. Miller. Boehner was very cheap when I was in the 
minority. To step up, I would have had to take a big step.
    Mr. Lungren. Well, actually, I go back to some of the 
years--if I just include his years along with that, you have 
actually brought it down a little bit. It is hard to believe.
    Mr. Miller. I am a fiscally responsible guy.
    Mr. Lungren. I know. I have known you for a long time, 
George. I am not sure I would always put that there. I 
appreciate that. I learn something new about people every day.
    There has been some discussion on this committee about 
asking committees to come back to see us at the end of the 
fiscal year because we are making the authorization for 2 
years--we are in tough budget times now; we may be--what the 
scenario is now is not going to be what it is a year from now--
and that we would have a chance to take a look. You would have 
a chance to say, here is how we followed through, based on the 
request that we have made; here are some different 
circumstances that have arisen.
    Would you be adverse to coming back before the committee at 
the end of the year?
    Mr. Miller. No. No. I mean, I am trying to think quickly 
what that would mean.
    Mr. Lungren. I guess, years ago you got a 1-year 
authorization.
    Mr. Miller. I think we did. I think you are right.
    Mr. Lungren. Now it is 2 years.
    Mr. Miller. This is a better process. But these are unusual 
times. We would have to keep that in mind, I think, as we go 
through the year.
    Mr. Lungren. That is what I mean.
    The Chairman. It also may be a good opportunity to give you 
some more money that we couldn't give you in the first year in 
the second year.
    Mr. Miller. I have thought of that.
    Mr. Lungren. That is the ying and the yang here. Very good.
    And you are satisfied in terms of--Mr. McKeon, in terms of 
the budget allocation, one-third/two-thirds, and the 
relationship you have with the chairman on those kinds of 
issues?
    Mr. McKeon. Yes. I wish I could get him to come my way on 
some other issues.
    Mr. Lungren. I know that. I thought his statement was very 
understated when he said, while Congressman McKeon and I 
sometimes disagree on legislative matters.
    Mr. Miller. We start every legislative journey holding 
hands on the road to bipartisanship. We make periodic 
judgments.
    Mr. Lungren. That is like saying that Kareem Abdul-Jabbar 
is over 6-feet tall. It is true, but it doesn't give you quite 
the full picture.
    The Chairman. Thank you.
    Ms. Lofgren.
    Ms. Lofgren. I appreciate the modest request, given the 
enormous efforts that face the committee. And I especially--I 
assume from your testimony that the No Child Left Behind 
legislation is going to be revisited. That is a huge amount of 
work.
    So I just want to commend you both for facing up to those 
responsibilities with such a prudent budget request.
    Mr. Miller. Thank you. That is why I think Mr. Brady's 
suggestion of seeing you at the end of the year might make some 
sense.
    Ms. Lofgren. I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. I was just going to echo Ms. 
Lofgren's concern about No Child Left Behind, and make sure 
that the resources are there to really do the work that is 
required, because we expect great things from you.
    Mr. Miller. We would like to get it done in the first year. 
I have not yet had a casual conversation with the new 
Secretary, but we have both made reservations with one another 
to talk about this as soon as we get through this immediate 
crisis. Hopefully that will be the schedule. So we will be done 
in this first session of Congress.
    The Chairman. Thank you, Chairman Miller.
    Ranking Member McKeon, thank you.
    Good afternoon, Mr. Chairman and Ranking Member McHugh. We 
appreciate you being here today.
    We do have a vote on. We just hope that maybe we can get 
through your testimony and get through your presentation in 
time to make this vote. We just got a call for a vote, so I 
think we can probably get this done.
    I appreciate it. Looking forward to your testimony.

STATEMENT OF THE HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. Thank you very much, Mr. Chairman, Mr. 
Lungren. We appreciate being allowed to testify today. As you 
know, my partner and my friend, John McHugh, is with us, the 
ranking gentleman. We have a funding resolution and supporting 
material before you. So let me make some brief comments, if I 
may.
    In simple terms, we request a budget of $18 million, what 
is needed to ensure the Armed Services Committee can fulfill 
its substantial oversight responsibilities while retaining a 
highly technical professional staff. We have a very unique 
committee, and our charge is very unique. We have the 
responsibility to oversee a military actively engaged in two 
wars. Yearly, we authorize over 50 percent--I will say it 
again--over 50 percent of the discretionary portion of the 
entire Federal budget. And overseeing the new administration 
change and strategy for two wars, and helping to decide the 
proper scope and the roles and budget will call for substantial 
exchanges.
    We have a huge mandate. And because 60 of our colleagues, 
including two members of this committee, have chosen to serve 
with us, making the Armed Services Committee one of the largest 
committees in the House, at the same time its relative level of 
resources both in terms of staff positions and funding 
allocations does not fully reflect our responsibilities.
    Now Mr. Chairman, it was before your time, but under 
Chairman Les Aspin, the Armed Services Committee was known for 
its oversight and its analytical work; and I remember very well 
being down in front during those days.
    But it was the run-up to the Gulf War. The committee at 
that time had 82 staff members, and today our staff is 69.
    And we thank the committee for the help that you gave us 
last year, and we are appreciative of this. And yet there are 
only three other committees that have smaller ratios of staff-
to-committee members than we. And I would certainly hope that 
you could be of help to us.
    In the last Congress we had 177 hearings. We also passed an 
outstanding National Defense Authorization Act, which is a 
four-decades-long tradition of getting an authorization bill 
enacted into law.
    We are bipartisan; every staff member works for everyone. 
However, we do have the minority controlling 14 of those slots. 
And we frankly need more money and more attention.
    We are asking for a total of $18 million, $8.3 million in 
2009 and $9.7 million in 2010. And this represents a real 
increase in where we are today; yet if you compare this to 
other committees and compare that to our responsibilities, we 
still would rank lower than the spending levels of four other 
committees in the 110th Congress.
    These are challenging budgetary times. We know that. In 
looking, however, at the funding levels of ourselves and other 
committees and the ratio of staff to members, it calls for real 
help, Mr. Chairman, and we would appreciate any help that you 
can give us along that line.
    The Chairman. Thank you, Mr. Chairman.
    [The statement of Mr. Skelton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. McHugh.

   STATEMENT OF THE HON. JOHN M. McHUGH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. McHugh. Thank you very much, Mr. Chairman and Ranking 
Member Lungren, and distinguished members. I am going to try to 
be very, very brief because I don't think I serve our interests 
by making us miss a vote. But if I may, I could submit my 
formal statement for the record in its entirety.
    The Chairman. Without objection.
    Mr. McHugh. I would say, Mr. Chairman, that obviously these 
are difficult times for our country. And as my chairman--and I 
would note, my good friend--Ike Skelton has said, we are 
somewhat of an understaffed and underresourced committee, given 
what lies before us.
    We have a change in the administration. The American people 
have spoken. But at the same time we will continue to oversee 
potential change, and in many ways a very appropriate change, 
in the strategies for Iraq and Afghanistan. And as I know all 
of us agree, these are conflicts that are critical to our 
national security; and we are going to have a great deal of 
discussion in this conference about what is appropriate 
national security policy and what the appropriate funding 
levels should be.
    Let me state, the committee has, as the chairman said, a 
very unique tradition; and with respect to this consideration 
before you, we have a bipartisan approach and a uniquely 
unified staff. And it is important to note for the record, 
within this structure the minority does control 14 slots.
    And again, as the chairman said, for the purposes of 
benefits and overhead costs and committee operations, the 
committee's minority staff is treated in exactly the same 
manner as the rest of the staff. And our long-standing 
tradition also holds that any staff increases that, in your 
wisdom, we are able to secure here will be equally shared by 
the minority. And obviously from my perspective, I think that 
is a very, very good thing.
    This request seeks to ensure the committee has sufficient 
staff resources, ensuring that the lessons learned from the 
current operations regarding the size and the capabilities of 
our military are not lost, that potential changes to military 
policy do not adversely affect our national security, and that 
we have done everything in our power to ensure--as I know you 
share an interest, Mr. Chairman, and all the members of your 
distinguished committee--that the men and women in uniform, who 
serve us so proudly, and their families are well served.
    We all recognize these are tough economic times; and we 
recognize, as well, this committee is going to have to make 
some very, very difficult decisions. But when you consider the 
amount of spending that we are making in the days ahead to try 
to restart our economy and to ensure that the regulators and 
overseers have sufficient budgets and staffs to account for 
that spending, this committee needs appropriate resourcing as 
well.
    Let me just, in closing, underscore one of the facts that 
the chairman made. The Department of Defense is spending close 
to $650 billion each and every year, while the American 
children--adults, young men and women--fight and shed blood for 
freedom. And in that light particularly, I would respectfully 
suggest that the $9 million we are seeking to oversee that 
effort is somewhat modest in comparison, that some of those 
other moneys will be spent for America.
    We have, I think, an awesome responsibility on this 
committee--again, the chairman said, over 50 percent of the 
discretionary funding--and I think in that context the request 
of the committee is very, very reasonable and something that I 
am here today to respectfully say I fully support.
    With that, I would certainly yield back.
    The Chairman. Thank you.
    [The statement of Mr. McHugh follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Also you need to know that Mr. Spratt was 
here testifying for his Budget Committee and asked probably for 
the least amount of money of anybody in front of us and put a 
big pitch in for the Armed Services Committee. And we took that 
to heart.
    I serve on Armed Services. It is a pleasure to be there. It 
is a great committee to serve on, great relationship. And I am 
sure that comes from the relationship between the Chair and our 
ranking member. So I thank you for that.
    Mr. Lungren, any questions?
    Mr. Lungren. As you suggest, we may not be able to grant 
all the requests that are out there.
    I happen to think national defense is the number one 
obligation of the Federal Government, so I appreciate the work 
that you do. But just for informational purposes, your request 
is three times the average request, percentage-wise, of any 
committee making requests out here and the third highest. And 
we have been told by the appropriators, we are going to make 
the ultimate decision how much money you get, that if we added 
up all the requests that we have got, it won't meet their mark 
that we have got.
    So we have got to do some trimming here. And I will just 
tell you that to know that we have got some tough decisions.
    The last thing I will say is this: We have been discussing 
here whether or not it would be good to have the committees 
come back to talk to us after the fiscal year. In other words, 
even though this is a 2-year authorization, come back after the 
first year so we can look at where you are, see how that stacks 
up with the requests that you have made, see if there are 
changed circumstances; on the one hand, make sure that what we 
thought is the case is the case, and if there are different 
factors, maybe we authorize something that might be in addition 
to what we can authorize right now.
    Would you have any problem with that, that is, coming back 
at the end of the year?
    Mr. Skelton. I don't think we would. Everybody that comes 
before you, Mr. Lungren, is going to say, We are different, we 
are special.
    The Chairman. Everybody has said that so far today.
    Mr. Skelton. I know. And maybe I sound like a broken record 
on that. But when I look at the job that we have to do, we are 
supposed to have four hearings a year on waste, fraud and 
abuse. We are supposed to have first-class oversight.
    The Defense Department, as the chairman and Mrs. Davis will 
tell you, is a humongous department and it needs as much 
scrutiny from professionals.
    We really have good people; we really do. We are wearing 
some of them out as the chairman and Mrs. Davis will tell you. 
We would like to add six this year, an additional six next 
year. To keep good people, you have to pay them. I don't want 
to see us raided of these professionals that we have; and you 
just have to pay them and treat them well.
    And that is where we are.
    The Chairman. Ms. Lofgren.
    Mr. McHugh. If I may.
    The Chairman. Yes, sir.
    Mr. McHugh. I fully agree with what the chairman said. We 
have certain obligations that professional staff recognize are 
critical to their future; and clearly, any uncertainty breeds 
the opportunity for them to search out new horizons. Having 
said that, I think both the chairman and I could say, we are so 
strongly committed and believe in this request that any future 
review, we think, could withstand your scrutiny. That is your 
jurisdiction.
    So while I firmly believe that this request merits a 2-year 
consideration, with respect to whatever determinations you 
make, I am sure we would meet that bar.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Just very quickly--and I don't necessarily 
expect to you have the answers to this question, but I do want 
to raise it so that it can be further explored by you.
    There are some committees, including yours, that have 
information probably more sensitive than certain other 
committees.
    Mr. Skelton. That is correct.
    Ms. Lofgren. And one of the concerns that I have had is 
that we have adequate cyber security efforts in place for the 
committee offices here in Washington, but also to make sure 
that--again, it is one of the committees where members travel a 
lot, and appropriately so, given the nature of the assignment. 
But members do take mobile devices and many of them do not 
realize that there is hacking going on and that they are 
exposing not only themselves, but potentially the committee and 
their offices to disruption and spying.
    So I am just hoping that we can--looking at your budget 
that you can put some attention to that. Certainly, House 
Administration has resources. But a lot of Members just have no 
idea what their----
    Mr. Skelton. We have and we will.
    Ms. Lofgren. The only other thing I would say, and I have 
said the same thing to Foreign Affairs is that before members 
go on a CODEL, I think it would be important for the committee 
to have a little heart-to-heart with each member going through 
the risky behavior that members are completely unaware of in 
some cases.
    Mr. Skelton. Yes, we do try to do that. Thank you.
    The Chairman. Thank you. We do have a vote. One minute.
    Mrs. Davis of California. Thank you, Mr. Chairman. Just 
really quickly, it is really tough for the staff to be a match 
for the Pentagon, as you know. I mean, that is tough.
    And so the work that they do is quite extraordinary; and I 
think that--as we look at the next 2 years, I guess I would ask 
the chairman and ranking member, in what area over the course 
of that year do you think you might have been shorted a little 
bit, didn't do something that you could have done had you had 
another resource, another staff member that could have helped?
    Mr. Skelton. In a word, oversight. We have the new 
subcommittee, as you know, that has been functioning very, very 
well. But oversight. It is a massive undertaking. Whether it be 
on personal matters or weapons systems or all of the above.
    I don't know how John feels, but that would be my thought.
    Mr. McHugh. I couldn't agree more.
    To the chairman's credit, when he took over and the new 
majority took over, one of the first things they did, as you 
know, Mrs. Davis, is create the Oversight and Investigations 
Subcommittee. They did a great job within the parameters of 
staffing that was available to them.
    But that is going to be more important, not so much as an 
oversight or potential wrongdoing by the new administration, 
but rather as a responsible and reflective oversight with 
respect to the rapidly changing environments in both Iraq and 
Afghanistan.
    Mrs. Davis of California. Thank you. I agree.
    And I know I missed that committee meeting because I was 
here.
    The Chairman. Thank you all. Thank you for being here 
today. Recess until the last vote. Thank you.
    [Recess.]
    The Chairman. Calling the committee on House Administration 
back to order. I would like to welcome our chairman of Veterans 
Affairs, Chairman Filner, and Ranking Member Buyer. And thank 
you for being here and we look forward to hearing your 
testimony.

STATEMENT OF THE HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Mr. Chairman and Ranking Member 
Lungren, for the opportunity to be here and Ranking Member Mr. 
Buyer joins me in support of today's request. I will submit by 
testimony for the record, and just say a few things in 
addition.
    Our committee is responsible for the second largest Federal 
agency in the government with over 260,000 people and a budget 
authority approaching $100 billion; and our request for 7.8 
million provides us not only the ability to hire a fine 
professional staff, but to pursue an aggressive oversight 
agenda.
    The 25 million veterans that we are responsible for means 
that a quarter of the Nation's population, over 70 million, are 
potentially eligible for VA benefit services because they are 
veterans, family members or survivors. So we need to serve this 
population.
    Our agenda for the coming year revolves around adequately 
funding the Department, addressing our backlogs in claims and 
benefits, building on mental health and traumatic brain injury 
treatment, rural health care and women's veteran issues and 
improving access to the VA.
    Ninety percent of our budget is for staff, as you well 
know. The couple of increases we have asked for revolve around 
travel because we have a lot of new members on the VA 
committee, and they have already approached us with requests to 
travel to VA facilities in their area, and for, of course, our 
oversight around the country.
    Our equipment request is in accordance with the end of Life 
Cycle program that is around the Hill.
    We do request in our staff ceiling from 34, and we ask for 
a raise to 36; This would allow both the majority and the 
minority to hire one additional staff person while still 
maintaining a two-thirds, one-third policy. We are a small 
committee, and we have a big responsibility; and we think we 
can do this with the staffing that we requested and the budget 
that we requested.
    And I think I speak for Mr. Buyer. All of us on this 
committee have great pride that we can, in fact, serve the 
great veterans of our Nation.
    Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Mr. Buyer.

STATEMENT OF THE HON. STEVE BUYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Buyer. Thank you, Chairman Brady and Ranking Member 
Lungren.
    I associate myself with the words of Chairman Filner. I 
support this request that treats the minority fairly in all 
respects and maintains the two-thirds/one-third division.
    And the budget was put together in a transparent manner, so 
I want to thank the chairman for that and the cooperation 
between our staff. All pertinent information was shared; it has 
been an open process, and for that, I am deeply appreciative.
    The only thing I would like for the committee to understand 
a bit of the history of VA, where we are and the purpose of 
this request.
    As I sat here, I heard you ask some questions about where 
could you cut, if you could cut, where would you do it. Please 
understand that when Chris Smith was chairman of the Veterans' 
Affairs Committee, he had gotten himself crosswise with then 
Republican leadership; and they began to cut his budgets to try 
to get him to cooperate, and it left our IT systems in 
disarray. When I became chairman of the committee, I then had 
to come to House Administration and ask for a very large 
increase, and we had to modernize our Veterans' Affairs 
Committee's budgets.
    Chairman Filner, over the last 2 years, carried through 
with that plan, but our servers now need to be funded. And so 
we are in this replacement plan for our IT architecture within 
the committee, and it is really important. I just wanted you to 
know that.
    I will now echo the chairman's comments. At Veterans' 
Affairs, we have an excellent staff that works in a bipartisan 
manner; and we deal with the consequences of war in ensuring 
that the earned benefits are properly delivered and timely. And 
there is a lot of oversight.
    But at the same time, we work very well with the VA and the 
VA has been doing a pretty good job. But, boy, they know how to 
trip and stumble, too. When they do, everybody gets to know 
about it in the country, and they demand immediate response; 
and the chairman and myself, along with that staff, try to be 
as responsible as possible and to go to those sites.
    So the budget that has been submitted I believe is a fair 
budget and allows us to do the job which I believe the country 
expects us to do.
    I yield back.
    The Chairman. Thank you.
    Mr. Lungren, any questions?
    Mr. Lungren. Thank you, Mr. Chairman.
    I thank you both of you for your testimony. Just on the 
record, it is your committee in the Congresses in the past that 
has pointed out when administrations have not come up with the 
proper funding. And you folks were proven right in recent 
years, as opposed to the administration, and you were sort of 
our guide in the Congress as to what the proper numbers ought 
to be.
    Is that correct? Am I remembering that history pretty well?
    Mr. Buyer. There has been a long debate over, quote, ``What 
is the proper funding within the VA health administration side 
of the House,'' and we learned--there is nothing wrong with the 
budget modeling, but what we learned is that the inputs are 
stale; and that has been a bipartisan effort, to make sure the 
number is correct.
    As a matter of fact, in the last Congress when Democrats 
then took over, my gosh, they even delivered a number that was 
higher than the Independent Budget. So what they sought to do 
on the committee is to put this issue to rest.
    Mr. Lungren. What I am just trying to point out is, your 
committee has done a good job of trying to find out what the 
facts are and trying to get them to those of us in Congress as 
you do your oversight. It is money well spent.
    Your increase request is in line with what you have gotten, 
averaged over the last three to five Congresses; and I think it 
is an obvious observation that the amount of work that the VA 
is going to be doing in the coming years is not going to be any 
less than it has been in the last 10 years, particularly as we 
have more and more of our veterans returning from active 
warfare. So I appreciate the work that you are doing.
    One thing I would just say is that we have asked here on 
the committee, others who have appeared before us, whether or 
not it would be a good idea for us to have committees come back 
to us at the end of this year to see how things stacked up with 
the request that was made and the expenditures that were made, 
and particularly since we are in uncertain economic times right 
now in trying to make budget decisions.
    So even though we would authorize for 2 years, the thought 
would be that we would ask committees to come back to us, 
report to us on what they are doing; and if there is a change 
of circumstances, have us take a look at it. And I hope that 
the two of you would cooperate with us in that manner.
    Mr. Filner. Sure, Mr. Lungren. I think it is a great idea. 
Anything that increases the transparency of the body I think is 
good and that is one that would do that. So we would certainly 
welcome that opportunity.
    Mr. Buyer. One of the reasons I think we would be more than 
eager to do that is with reference to the travel budget. At the 
end of the last Congress, the VA sent us a message and said 
they were no longer going to pay for our travel. I think what 
we had was an administration saying, I don't want to pay the 
bill to have you do all this oversight on us and then criticize 
us; and so--I am just paraphrasing, but I think that is 
probably--so they cut the travel budgets.
    So we have had to increase the request for travel on our 
side and my sensing is that----
    Mr. Lungren. That is so your members can go and see--do on-
site trips, find out for themselves?
    Mr. Buyer. The on-spot visits. You have to go flip the 
beds, look in the trunks, and go where they don't want you to 
go. And that is what the staffs do.
    But my sensing here is--and I will meet with the Secretary 
tomorrow--they are going to keep that. I had this discussion 
with his staff and shared it with the chairman. My sensing is, 
the Secretary will keep that as the norm for this year.
    So, in the budget, we will be paying out of hide for our 
own oversight. But what I am hopeful for is that the 
administration--then we can negotiate that in our budgets and 
they can pick that up like they do for DOD. So when we do that, 
I would be more than happy to come back and discuss that.
    Mr. Lungren. Thank you very much.
    The Chairman. Ms. Lofgren? No questions.
    Thank you, Mr. Filner. Thank you, Mr. Buyer. Thank you for 
your time.
    Mr. Filner. We should come back every quarter maybe because 
it is such a wonderful experience.
    The Chairman. I don't feel like seeing you that often.
    Good afternoon.
    Mr. Thompson. Good afternoon.
    The Chairman. It is good to see Homeland Security and we 
appreciate Chairman Thompson and Ranking Member Mark Souder 
being here to testify today. We look forward to your 
presentation.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Mr. Chairman, Ranking 
Member Lungren, other members. I see my colleague from 
Mississippi, Mr. Harper, and obviously a member of the 
committee, Ms. Lofgren. I am happy to be here.
    Obviously this is not Ranking Member King. He sent his best 
person on the committee in his absence given his schedule. I 
think Mr. King has some other commitments in New York. I think 
some of us are familiar with what he is working on, and so he 
could not be here. But I am happy to be here.
    Ranking Member King and myself really work well on this 
committee together, Mr. Chair. Over the past two Congresses, we 
have worked in a very bipartisan manner. We have conducted 
oversight on some very difficult issues, and I have held a 
number of hearings affecting nearly every aspect of the 
Department.
    The biggest government reorganization in decades is no 
short order. Its first transition to a new administration has 
been one of our chief concerns for over a year. I also know our 
committee's work on both natural and man-made disasters speaks 
for itself. However, we still have a lot of opportunities and 
responsibilities within this mammoth Federal agency.
    From the standpoint of the Chair of the committee, we have 
had, as I indicated, a very bipartisan approach. Our staffs 
work together on all those areas. We have had a record number 
of hearings, especially oversight.
    Our budget request is in line with what we think we will 
need to continue the responsibilities of the committee this 
session. We feel very comfortable that since this request does 
not reflect any request for additional staff to perform the 
duties, it basically recognizes the fact that in order to keep 
a good staff, we have to pay them; otherwise, we will lose 
them. So beyond the normal increases for supporting competent 
staff, we don't anticipate any requests for any additional 
financial support.
    We do a number of field hearings. We travel around the 
country, looking at various aspects of Homeland Security, 
whether it is border security, cyber security, transit 
security, port security. This mission is not just here in 
Washington, but it is all over the country and, in some 
instances, around the world. But we have made it.
    There are a number of things we want to look toward next 
year--and this year, really--with the budget. We have an issue 
with TWIC cards, border security efforts, an intelligence 
fusion center in Denver, new security infrastructure issues at 
the Port of Long Beach, L.A., protection of the subway and 
commuter rail systems in New York, DC, chemical plants in New 
Jersey and Houston.
    We have a diverse mission, So in support of that, we make 
this request before this committee to allow us to perform those 
duties. And in the interest of allowing my ranking member, Mr. 
Souder for the benefit of this hearing, I will yield to him at 
this time.
    [The statement of Mr. Thompson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Souder.

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Thank you very much, Mr. Chairman--Chairman 
Brady and Ranking Member Lungren and all the other members of 
the committee. The ranking member, Peter King, had an 
unavoidable conflict, as you heard, and he asked me to 
represent the committee Republicans.
    I would like to congratulate the gentleman from California 
on his appointment as ranking member of your committee; and as 
a senior member of the Homeland Security Committee, he knows a 
wide range of issues.
    The committee addresses an important role. It plays in 
overseeing the Department of Homeland Security, as does Ms. 
Lofgren, who has worked on the committee from the beginning. 
The funding level requested will allow the committee on 
Homeland Security to continue its important work. The staffing 
level remains the same as the last Congress with 22 positions 
for the Republican staff.
    Mr. Chairman Thompson has pointed out that the Committee on 
Homeland Security has accomplished much since its establishment 
as a standing committee in 2005. In the 109th Congress, the 
committee was responsible for new laws of important security, 
chemical plant, security border infrastructure and FEMA reform.
    In the 110th Congress, the committee played a role in 
ensuring H.R. 1, implementing recommendations of the 9/11 
Commission Act, was enacted into law. In both Congresses, the 
committee conducted extensive oversight of the Department of 
Homeland Security.
    In the past 2 years, we saw Islamic terrorists attempt to 
kill hundreds of innocent British citizens, first in the 
popular downtown nightlife area and later at an airport. We saw 
another cell plot to behead British soldiers who had returned 
from Iraq.
    In the United States, we witnessed six Islamic terrorist 
plots to kill U.S. soldiers at Fort Dix, New Jersey, and 
another group to set a fire at JFK Airport and the surrounding 
neighborhoods.
    This past Thanksgiving the world watched in horror as 
nearly 200 civilians were killed in a coordinated terrorist 
attack in Mumbai, India. And just this morning, Taliban suicide 
bombers carried out a Mumbai-style attack in Kabul, resulting 
in at least 19 killed and 46 wounded.
    These are just the terrorist plots that have been made 
public.
    The Committee on Homeland Security held its organization 
meeting last week and adopted its rules package and oversight 
plan. The chairman and the ranking member expressed their 
intent to work in a bipartisan manner. While we have our policy 
differences from time to time, we will express them in a 
constructive way.
    In the 111th Congress, we need to address the security 
implications of the President's plans for Guantanamo Bay, 
explore the findings of the WMD Commission, pass an 
authorization bill for DHS, strengthen border security, and 
improve intelligence and information sharing.
    We also look forward to working with the new Secretary of 
Homeland Security, Janet Napolitano, to ensure adequate 
resources and constructive oversight are provided to the 
Department.
    We ask for the support of the committee on House 
Administration for this funding resolution to allow our 
committee to do what it can to protect our country from a 
terrorist attack and be better prepared for national disasters.
    The Chairman. Thank you.
    Mr. Lungren, any questions?
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
you, Mr. Chairman and Mr. Souder, for appearing before us and 
representing the committee in the request, which appears to be 
a very reasonable request considering the continuing ambit of 
issues that the committee deals with.
    I also might note this is a relatively new committee, and 
as a result, it had rather substantial increases in the past 
several Congresses. And so this is a substantial departure that 
is a far smaller request for an increase than we have seen in 
the past. And I think that is an indication that the committee 
is up and running, that we have sort of hit our stride, and we 
have done those kinds of organizational things that need to be 
done.
    Just one question and that is that we have discussed on 
this committee the idea that while we do 2-year authorizations, 
it would be a good idea to have committees come back to us at 
the end of the year, end of the fiscal year, and basically 
share with us what progress has been made, how the money has 
been spent consistent with what the request was made for. In 
light of the fact that we have real questions about the economy 
right now, and we are trying to make tough decisions as to what 
budgets ought to be, there might be changed circumstances in a 
year, and it might be of interest to this committee to know 
what needs the committee has at that time.
    So we would hope that the committee would work with us on 
that.
    Mr. Thompson. We would not have a problem at all.
    Mr. Souder. May I comment?
    Probably as much or more than almost any committee in 
Congress, the likelihood of something happening in our area of 
influence would be large that--while we are staffed up more 
than we were, as a senior member at Oversight and Government 
Reform, we have far more staff over there than we have at 
Homeland Security.
    There have been all kinds of jurisdiction questions, and 
the 9/11 Commission wanted this committee to be the point 
committee; and in fact, if there is a terrorist attack on our 
soil, you are likely to see a lot of pressure come towards this 
committee. So the ability to come in and review it at the end 
of the year would be helpful.
    And I would also like to praise Mr. Thompson's reasonable 
request. I have been a committee staff director. I have been a 
Member of Congress who has made requests for committees. This 
is a very reasonable request; and if at the end of the year or 
somewhere along the line you have to reevaluate, I would hope 
it would be taken into consideration who asked for big 
increases, who asked for smaller increases, and it not be some 
kind of proportional, across the board, because that is what 
gets people to lead to inflated requests if that would happen.
    Mr. Lungren. I appreciate that very much. And you bring up 
a point, which is, if I am not mistaken--the last remaining, 
unresolved recommendation of the 9/11 Commission was that we 
have a single committee with prime jurisdiction over Homeland 
Security matters; and both the Senate and the House have failed 
on that one.
    I would hope that we would move further in that direction, 
and you need to have a budget that is equal to the challenge of 
the responsibilities that the committee has.
    So I appreciate your presentation and I thank you.
    I thank you very much, Mr. Chairman.
    The Chairman. Ms. Lofgren, any questions?
    Ms. Lofgren. I would just say I have been happy to serve on 
this committee since it was--before it was a standing 
committee; and it has been really a pleasure to serve with the 
many talented members across the aisle.
    And certainly Mr. Thompson's leadership has been excellent. 
As Mr. Lungren has noted, this now--I think the budget request 
is a reflection of how the committee has now matured. And I 
want to give credit to the chairman and certainly Mr. King, who 
couldn't be here today.
    But the members have worked very hard, and I think we are 
going to have a very good year; there is a lot of new energy in 
the committee. Some of the members who wavered certainly added 
continuity, but because of their other assignments, weren't 
always able to attend.
    So we are just going to have a great year, I think, in 
Homeland Security, and I look forward to approving this budget.
    The Chairman. Mr. Harper.
    Mr. Harper. I would just like to say how much I appreciate 
the leadership that Chairman Thompson and Mr. King have 
provided. Keep up the good work.
    Mr. Thompson. Thank you very much.
    The Chairman. Thank you, Mr. Chairman. Thank you, Mr. 
Souder. Thank you for appearing here today.
    Mr. Gordon. Mr. Chair, Mr. Hall is on the way. Let me just 
say that there is something going on in this room. I wish you 
could bottle it and take it to the rest of the floor. The 
collegiality is very warming.
    This is really the first time I have ever seen Mr. Buyer 
and Mr. Filner be civil with each other and even agreed. So--
something is going on here, so my congratulations.
    The Chairman. I have got to tell you, we were a little 
disappointed ourselves, but----
    Mr. Gordon. I don't want to hold you up. I am sure Mr. Hall 
is going to be in the amen section, and I don't think he would 
mind my going forward, and then he can join--I hate to speak 
for him. He doesn't have staff here. But I know you have got 
things to do here.
    The Chairman. We will let you do your opening statement. 
Hopefully, he will come in. And then if he comes in during, we 
will let him speak too. Is that okay?
    Go right ahead, Mr. Chairman.

STATEMENT OF THE HON. BART GORDON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Gordon. Let me just get down to business.
    We are asking for a 10 percent increase. And I know you 
have got to think, ``Well, these are tough times; why are you 
doing that?'' So I think we need to give you an explanation.
    You have some charts there before you that show the amount 
of, really, additional work that our committee has done. We 
have doubled the number of hearings in the last Congress from 
the previous Congress, and all the collateral work that goes 
with that also increased.
    We have several authorizations that are coming up this 
year; for that reason, we were granted three additional staff 
members to try to take care of this. So those were expensive.
    And we are in a somewhat unique situation in that most of 
our professional staff have PhDs. They all have advanced 
degrees; most of them have PhDs in engineering or the sciences 
or those hard-to-get areas. We have continuing battles to stop 
the poaching, so we really have to pay our folks comparably to 
keep them there. So payroll is a big part of our budget.
    As you know, the administration has put a priority on 
science for this coming year, as President Obama has said on a 
number of occasions; and my friends here on this side know that 
when Speaker Pelosi speaks to our caucus about innovation and 
about the future, she says there are four things we have to do. 
She started off with three, now it is four: science, science, 
science, science.
    So we are being asked to do a lot of things in that regard. 
Travel goes up for everybody, and we know that is going up. But 
we are again a little bit unique in the sense that we have 
several new subcommittee chairmen and ranking members, as well 
as several new members. So we are expecting there is going to 
be more travel than usual as they better understand their jobs.
    Then we get to the other major category. That is equipment. 
We are on a somewhat regular cycle and this coming cycle for 
this coming year and in 2010, we are replacing all of our 
desktop computers, which will be expensive.
    There is something called a Lektriever. If you don't know 
what that is, I don't really either, but I am told we have one. 
It is way downstairs. It is over 20 years old, they think--
nobody has been around long enough to know how old it is--and 
that needs to be replaced. We are going to try to make it with 
bubble gum and all that until at least 2010.
    So, again. I think we are in somewhat of a unique 
situation. And I will either conclude there, or you will be 
welcomed to ask questions, or we can wait for Mr. Hall or 
whatever you would like to do.
    I understand Mr. Hall is stuck in an elevator.
    The Chairman. Are the elevators stuck again?
    Mr. Gordon. Let me also say that every piece--we got out, I 
guess, almost 70 pieces of legislation in either bills or 
resolutions last year. All were vastly bipartisan. There wasn't 
anything that wasn't bipartisan coming out of the committee; 
and I think that is a tribute to having a good partner here.
    [The statement of Mr. Gordon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Mr. Hall. Amen.
    The Chairman. Ranking member, Mr. Hall.

   STATEMENT OF THE HON. RALPH M. HALL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hall. Yes. I thank you. I will read this to you guys--
it's my first time reading it. I won't make any mistakes.
    As you know the House Science and Technology Committee has 
a long history of bipartisanship. Chairman Gordon and I worked 
together the last Congress to pass many good pieces of 
legislation and advance important programs and initiatives for 
the American people, including the America COMPETES bill and 
the NASA Reauthorization Act.
    Bart may want to put another one or two in there.
    I look forward to working with him in this Congress to 
promote more initiative for our energy independence, our space 
program and our international competitiveness. And the rest of 
it goes about the division of--split between majority and 
minority; but he has always been very fair with us, and I 
expect the same thing this time. I put this in the record.
    The Chairman. Thank you.
    [The statement of Mr. Hall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Gordon, does your budget allow you to 
grant each minority request for equipment and travel?
    Mr. Gordon. I am sorry, sir?
    The Chairman. Has your budget allowed you to grant each 
minority request for travel and equipment?
    Mr. Gordon. I can't say ``no'' to Ralph. There hasn't been 
a request for travel or equipment for a hearing or anything 
that Mr. Hall has asked for that they haven't received. Yes, 
they have gotten all of their equipment.
    Mr. Hall. I send these two ladies to see him when I really 
want something.
    The Chairman. I wanted to hear that. You have to push your 
button on the microphone. I didn't care about the statements so 
much, but--that is okay. You don't have to repeat that.
    Mr. Hall. I will say he has been very cooperative.
    The Chairman. Okay.
    Mr. Lungren, questions?
    Mr. Lungren. All right. I am waiting to hear these answers, 
Ralph. Going over the numbers, the request you have is exactly 
twice as much as the requested increase over the past five 
Congresses. Can you tell us why that----
    Mr. Gordon. I think there are a couple of reasons.
    Let's see. Well, there are no 1994 folks here, are there? 
In 1994, or the beginning of 1995, we had a series of chairmen, 
Mr. Sensenbrenner being the last, that felt that their job was 
to do as little as possible in terms of the committee work. And 
I say that because that is what they were about less 
government.
    So the Science Committee had its budget really slashed 
during that period of time, and it hasn't really started to 
come up yet. So, one, we start from a low benchmark.
    The other thing, as I said, our work vastly increased last 
year. We had double the amount of hearings. Both the Speaker 
and the President have made science and technology a real 
emphasis, so we are expecting even more coming this year.
    And, again, I think the unique thing is that most of our 
budget goes to staff, and I don't think there is any question 
we have more PhDs. per capita than any other staff. It doesn't 
mean we are any better, just that we have a niche of 
information; that is what it takes.
    Mr. Lungren. I am not a scientist, but I was an English 
major in college. So I appreciate your saying--using the word 
``unique'' properly. You said there was a unique--because we 
have heard about ``very unique'' and ``kind of unique'' and 
``somewhat unique''; and something is unique or not. So I 
appreciate you using the King's English here correctly.
    Let me just ask you this, and this is kind of a general 
question, but I don't get a chance to ask the two of you this 
very often. I have spread my service over 30 years here in this 
Congress and the same question remains. Why aren't we 
attracting more of our young people to science? Why aren't we 
doing a better job generally, but particularly with minority 
kids? Why is our system failing?
    Kids are so attracted to new technology in terms of video 
games--I mean, if you want to know the newest technology, make 
sure you talk to a kid. I mean, they know how to do it better 
than we do. So they seem to have an affinity for that, but they 
don't have an affinity for science. Do you have any thoughts on 
that?
    Mr. Gordon. You hit a button here. So let me try not to 
take too much time.
    To follow up on--continuing on your question, when you look 
at the scores of American students, particularly in middle 
school and high school, on international science and math 
tests, the last thing I saw, I think we were 31st out of 33 of 
industrialized countries in math and 32 out of 33 in the 
sciences.
    So we--Sherry Boehlert, Lamar Alexander and Jeff Bingaman--
asked the National Academies to do a report on that, what is 
going on here. As they looked into it, they determined we are 
not less smart than the rest of them.
    Let me give you an interesting thing here: 53 percent of 
our middle school and high school math teachers have neither 
certification to teach math nor a degree; 93 percent of the 
physical science teachers have neither certification nor a 
degree in that subject. So it is hard--no matter how good a 
teacher you are, if you don't fully understand your core 
subject, it is both hard to teach and it is hard to get your 
students excited.
    Mr. Hall mentioned the COMPETES bill last year, and one of 
the things that we did--and I assume most of you voted for it--
we passed legislation--for a variety of things. One, it is 
going to provide stipends for those good teachers that are 
there now that don't have a certification to go back to school, 
get their certification--AP, National Board, whatever it might 
be.
    And all of this is through the National Science Foundation, 
using existing programs that are just being scaled out, ones 
that we know work. There is also another program to bring in 
professionals that are engineers, or whatever it might be, now, 
that want to go into teaching, to give them that teaching 
background so they can take the background of the substance and 
end up teaching.
    Then there is also going to be a scholarship program for 
those students that will go into math or science--and 
education--and agree to teach for 5 years. So we are trying to 
reload in that way.
    And you hit a very good point. Women and minorities are the 
most underrepresented--it is scary. And we have also passed 
legislation to try to increase that.
    I would love to talk about this more, but one last thing. 
Last year, the Chinese in China, they graduated more English-
speaking engineers in China from their universities than we did 
here in this country. That is English-speaking.
    Mr. Lungren. I obviously touched a button. I appreciate 
that.
    Let me just throw out one little suggestion. When I visited 
Hong Kong a couple of years ago with Buck McKeon and others, I 
found out that in Hong Kong they have outstanding science, math 
records for their kids. And one of the things they do is, they 
require their teachers in middle school and high school to have 
a degree in math or science.
    But the interesting thing is, they have far more that 
graduate in that than they can put in their schools; and they 
are all required to learn English as a part of their system. 
Wouldn't it be a great exchange program to bring some of those 
people who are English-speaking--who know math, know science, 
have been taught how to teach kids that--over here to the 
United States? Not in competition with the programs you are 
talking about, but maybe as a little jolt here and there?
    I just throw it out for your----
    Mr. Gordon. I think that is something we should talk to the 
State Department about. That is a good recommendation. Thank 
you.
    Mr. Hall. I don't know the real reason, but there is a new 
impetus to the young people to enter math and science. And 
there is more encouragement from the scholars in my State, in 
my area; and young people are better dressed, they are better 
fed, they are better educated. About the only thing that they 
are missing that I had and some of you had was hardship, and we 
don't want them to have that. But most of them are more 
intelligent.
    A lot of minorities have the opportunity now to go to 
school and there has been some emphasis on that the last 10 
years in the South and the West. And I think youngsters react 
to that, and I think they realize that when we give them the 
statistics about China having--what, seven times as many 
engineers graduating; India, three or four times as many; and 
Mexico, as many or more--I think they are smart enough to know 
that, and they may be attracted to something where they are 
needed. Maybe we have just not done a good enough sales job on 
young people.
    There is a new school in Texarkana, Texas, that is totally, 
completely aimed towards math and science; and the problem 
there is that they are going to have a group of people that are 
just smart and intelligent in math and science and miss the 
other academic thrusts, and they are doing something to address 
that. But it is working.
    And I think we have youngsters that know they are needed 
there and they may be responding. I would like to think that is 
it.
    Mr. Gordon. Just a quick footnote on that. We are 
celebrating our 50th anniversary of the Science Committee. We 
were a result of Congress' reaction to Sputnik. The other 
reaction to Sputnik was a whole group of kids that wanted to go 
into math and science because NASA was getting up and going and 
they really saw something there.
    I think that we have another Sputnik program right now, and 
that is with energy; and I think with the emphasis on our 
energy security, as well as expanding different types of 
energy, I am hoping that is also something that is going to 
inspire young folks to see that there are those opportunities, 
and to do that, you need to get engineering and those kinds of 
backgrounds.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I will just be brief.
    I served on the Science Committee for many years, and I am 
on leave now. But it is really one of the finest committees in 
the Congress. It is just a wonderful committee, and the work 
that you did in the last Congress is just fabulous; it was so 
important to our country to advance us.
    And there is more to be done. I know that the staff is 
just--it is really one of the finest staffs in the Congress. I 
mean, you are right that PhDs are the masters of expertise, so 
certainly that doesn't come cheap. But I tell you that the 
benefit for the country is priceless when we look at what we 
are going to need to do.
    Just in listening to the issue of why we don't have more 
young people going into science, engineering and math, I was--
it made me think that sometimes even the people we have in 
those subjects move on to other things and some of it has to do 
with remuneration. My son is an undergraduate at Stanford, and 
he said one of the smartest guys he ever met, who was a math 
genius, ended up on Wall Street, not in a lab or in a science.
    Mr. Lungren. He may be coming back.
    Ms. Lofgren. He may be coming back. But I do think when you 
take a look at--the one thread about excellence for kids in 
school is whether they have a fabulous teacher. You can slice 
and dice it; if you have a fabulous teacher, it relates to 
having good outcomes. And so certainly having teachers who are 
able to really teach math and science because they know it 
themselves is going to be very, very important.
    So I just wanted to say thanks to you two for being here, 
for the great job that you did last year and the great job I 
know you are going to do this year. It is really, really 
important.
    Mr. Hall. I worked with you a lot of years and I know of 
your background, your successes; and I am not surprised that 
you have a son that is at Stanford. I couldn't get in Stanford, 
much less ever hope to get out with my background.
    I had a letter from Rice University telling me I was in the 
top 10 to be chancellor. And I wrote them back and gave them a 
copy of my transcript of my last year in law school and also 
wrote and told them about an article that appeared in the paper 
when I was county judge about my background in high school. It 
said one time that I had made four Fs and a D and my daddy 
whipped me for spending too much time on one subject.
    That wasn't true, but that is something they used in 
politics against us.
    But I admire you for your boy and I know you are proud of 
him.
    Mr. Gordon. If I might add just one thing about staff--the 
difficulty in getting good staff?
    When I was first elected chairman, the first thing I did--
or even before the election--after the election, before I was 
asked to be chairman, I went to the minority and said, Staff, 
you can be the first to apply for jobs; and our first seven 
hires came off the minority staff. Not only was it the right 
thing to do, but we needed to do it to get the best talent we 
can. And we just had our first turnover of a staff director, 
and it was one of the former minority staffers who is the new 
staff director.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you. No questions.
    The Chairman. Thank you, Chairman Gordon. And Ranking 
Member Hall, thank you.
    And thank you for bringing a little bit of relief to this 
pretty boring and long, tenuous day. Thank you so much.
    Good afternoon.
    Ms. Velazquez. Good afternoon.
    The Chairman. Thank you, Small Business, for coming in 
today; we appreciate your time and look forward to your 
testimony, Chairwoman Velazquez and Ranking Member Mr. Graves.
    Chairlady Velazquez.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Chairman Brady and Ranking Member 
Lungren. I really appreciate the opportunity to come before you 
today to discuss the budget submission for the House Small 
Business Committee in the 111th Congress.
    We are requesting funds of 7.92 million, a budget we 
developed with great cooperation from Ranking Member Graves' 
office. Consistent with changes we made in the last Congress, 
the ranking member has full control over a third of that 
budget. And I want to stress that he has full control; that 
means he gets to determine spending priorities on everything 
from travel to staff salaries. In other words, Mr. Graves gets 
to make the same decisions for his staff as I do for mine.
    A significant part of the increase I am requesting will go 
towards nine new staff positions. Those new staffers will be 
allocated between both the majority and the minority and will 
work for our five subcommittees. This is critical because those 
subcommittees are going to have significantly more 
responsibility in the coming Congress. Now that they each have 
their own jurisdiction, they will have the ability to not only 
hold hearings, but to draft legislation and convene markups.
    In order to do so, they will need sufficient staff support. 
Additional staffers will also work with other members' offices 
to help them do their best for local businesses. The committee 
has been inundated with requests for casework on everything 
from SBA loans to accessing capital; but as of today, we just 
don't have the staff to fully address every inquiry.
    We are also seeking funds for holding field hearings. As 
Congress is making policy to stimulate the economy, we need to 
be measuring its impact, not just here in Washington, but in 
different parts of the country. Remember, small firms do not 
have money for high-priced lobbyists. We need to be able to go 
to them. That way we can hear the stories and bring their 
feedback here to Washington.
    Another important provision would allocate funds for 
conducting extensive oversight on contracting and procurement 
over which the committee has jurisdiction. With Congress about 
to pass a stimulus package containing billions of dollars in 
new Federal contracts, it is important that we have adequate 
resources to guard against fraud and abuse.
    The budget also accounts for the committee's technology 
needs. We will use the additional funding to subscribe to the 
House Webcast service, which will allow entrepreneurs across 
the country to watch our hearings. This is a service that the 
committee wasn't able to provide before since the hearing room 
was only recently fitted with the proper audiovisual equipment.
    Additionally, I am requesting funds for staff BlackBerrys, 
seeing as we are the only majority committee staff without 
them.
    In the last Congress, this committee was awarded the 
smallest--and I underline, smallest--allocation of any other. 
In fact, we only received 3.3 percent more than we did during 
the 103rd Congress, which was 15 years ago. Since then, our 
budget has not come close to keeping pace with inflation, a 
fact that has adversely affected our ability to carry out our 
work.
    Even so, with the smallest staff and the lowest budget, we 
held the second-most hearings of any committee and set a record 
of bills passed. And I would like to point out that record 
includes bills passed by minority. If the House Administration 
Committee is kind enough to approve our new budget, we will be 
able to do even more in the next 2 years.
    Entrepreneurs are proven job creators and proven catalysts 
for economy growth. In the next few months, they will play a 
pivotal role in this country's recovery efforts. I know I speak 
for the entire Small Business Committee when I say we look 
forward to helping them play that role and that we look forward 
to strengthening the small business community with a new budget 
in the new Congress.
    I appreciate your time and will be willing to answer any 
questions you may have.
    [The statement of Ms. Velazquez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Ranking Member Graves.

STATEMENT OF THE HON. SAM GRAVES, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Graves. The only thing I could add, I guess, to what 
the chairwoman said is, for the first time, the five 
subcommittees have legislative jurisdiction. That has never 
happened before in the Small Business Committee, which kind of 
makes this a little bit unique compared to other committees.
    The Chairman. Thank you.
    Questions, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I listened to your testimony very carefully and one of the 
strongest points that comes out of it is that you are starting 
from a very small base and you think you need to gear up for 
additional responsibilities. But based on the staff analysis, 
the request from your committee is a 32 percent increase----
    Ms. Velazquez. Correct.
    Mr. Lungren [continuing]. Which is far larger than any 
request of any committee; and we are being told now that maybe 
times are such that we have got to cut back here.
    And so I am just asking, how do I explain to folks a 32 
percent increase when the average request from all the 
committees in the Congress submitted thus far--we have one that 
is still outstanding, but those for that have come in thus far 
it is about 7.2 percent.
    Ms. Velazquez. If I may, our budget in the 110th Congress 
was below $6 million. But when you start with such a small 
dollar amount, what we are doing is playing a catch-up game to 
be able to get the type of resources that will enable the 
committee, given the new responsibility to all the 
subcommittees, to do hearings, markups, the draft legislation, 
to conduct field hearings.
    And I will submit to you that this committee is doing so 
much casework. Every single day we are inundated with Members' 
requests to handle cases in their own districts--with people 
who are small businesses that can't get loans because of the 
credit crunch, and they want to know what information exists in 
terms of the SBA small business lending programs, what is the 
best program that exists for them to go about it; or problems 
with getting procurement, getting to the Federal marketplace. 
So we have to constantly be able to provide the type of 
guidance, technical assistance and information for small 
businesses who are struggling in this credit crunch to be able 
to survive.
    So given the time, the crisis that we are in, this is when 
we really need to increase the budget for the committee that 
has the smallest of the 18 committees that we have in Congress. 
So it is not the percentage; yes, 32 is high, but it is 
misleading when you compare the dollar amount that it 
represents.
    Mr. Lungren. You both have mentioned a new jurisdictional 
responsibility for the subcommittees. Where did that 
jurisdiction lie before?
    Ms. Velazquez. We didn't have that type of jurisdiction. 
Now all the subcommittees have been vetted with a formal 
legislative jurisdiction, so--before, the markups and drafting 
legislation was conducted in the full committee.
    But we didn't--we didn't have that type of regular order.
    Mr. Lungren. But the committee had the legislative 
jurisdiction? It didn't come from another committee?
    Ms. Velazquez. No.
    Mr. Lungren. Okay. Okay. I am just trying to figure----
    Ms. Velazquez. That is good for me and it is good for the 
minority. There is going to be more transparency. There is 
going to be more input from both sides of the aisle.
    Mr. Lungren. And I very much appreciate your outlining the 
one-third/two-thirds rule and how extensive it is in your 
committee.
    Ms. Velazquez. Correct. When I was sitting in that chair 
and I was the ranking, I didn't have----
    Mr. Lungren. We appreciate your showing progress in that 
direction.
    The last thing I would say is, we talked here about the 
fact that we were asked, as has been the practice for some 
time, to have authorization for 2 years. But it might be good 
for us to ask committees to come back after the first year to 
show us how they are doing.
    Mr. Lungren [continuing]. Tell us how the requests stacked 
up with what actually occurred and if there are new 
circumstances that we ought to address going in the second 
year. We hope that you would cooperate with us on that.
    Ms. Velazquez. Oh, I will welcome that invitation. The last 
2 years, we were one of the most productive committees, holding 
more than 60 hearings, passing more than 21 bills through the 
House, and almost half of those were sponsored by the minority. 
So----
    Mr. Lungren. You are doing so well, I don't know why you 
changed to subcommittees. You should have stayed with the full 
committee. Anyway, thanks.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. First, let me thank both the chairwoman and 
the ranking member for really a very productive effort and 
really when you look at our economic challenges, the role of 
small businesses is more important today than ever. So we know 
that as we move forward in this Congress, your efforts are 
going to be just key to our economic recovery.
    I can remember in past years when we had contentious 
discussions about this budget, and clearly you two have come to 
a meeting of the minds, and it is good to see the collaboration 
that you are exhibiting because really our small businesses are 
going to require that from all of us. So you are a good model 
for all of us up here.
    Just looking at the budget, you started out low. And so it 
is a large percentage increase, although in terms of dollar 
amounts it is not that much--it is not as big as some other 
committees have asked for. It looks to me that if you had 
adjusted for inflation, actually you would be getting about 
what you got in 1994 adjusted for inflation. Is that incorrect?
    Ms. Velazquez. It is correct.
    Ms. Lofgren. Well, I think that is important and clearly we 
don't know all that we are going to be able to do, but I think 
certainly we should do our best to try to support the terrific 
efforts that you have made.
    So I would yield back, Mr. Chairman.
    The Chairman. Mr. Harper.
    Mr. Harper. It appears that the bulk of your increase, 
would that be on staffing positions or other areas?
    Ms. Velazquez. Staff and also technology.
    Mr. Harper. Okay. And what impact would it have on your 
committee if you delayed hiring or filling the new positions?
    Ms. Velazquez. Well, then maybe when small businesses from 
your district call your office and ask for assistance and you 
refer them to us, it would take instead of a week, maybe 6 
months and by then they might have to close their shop. We are 
in dire need. This is not that we come here to say that we are 
going to increase the staff to--we need it. It is overwhelming, 
especially because it is the Small Business Committee. And 
people are suffering in this country. And it is important for 
them that when we say that small businesses are the engine of 
our economy, that they are the job creators, that in order to 
get this economy back on track we need to help them. We have to 
provide the assistance that they need. And this is the time to 
empower the committee to do more. We have been doing much more 
with less. It is time, given the crisis that we are in, that we 
get the resources that we need.
    Mr. Harper. There are projected nine new positions, 
correct?
    Ms. Velazquez. Correct.
    Mr. Harper. There are still positions on the majority and 
minority that are going to be filled, and those are already 
within the budget or are available to go ahead and fill those 
positions. And I show that most of them are due to be filled in 
March of this year, is that correct?
    Ms. Velazquez. Yes.
    Mr. Harper. And will that alleviate some of the problem in 
and of itself on some of those positions or are those doing 
casework?
    Ms. Velazquez. Well, five of the staff will go to work on 
the five subcommittees. One will be--three will be for the 
minority, five for the majority. One of those will be doing 
just casework.
    Mr. Harper. Thank you for the input.
    The Chairman. Yes. I remember I served on that committee 
many years ago. I remember the fights and hardships that you 
had, you know, fighting to try to get up to parity then. And it 
is quite admirable now that you don't harbor any misgivings 
that were trying to get you up there, that you do respect the 
minority. And we appreciate--I appreciate that because you 
never know, majority today, minority tomorrow.
    Ms. Velazquez. That is right.
    The Chairman. It is nice that you do that. Thank you for 
being here. Thank you for taking your time, Chairperson 
Velasquez. Ranking Member Graves, appreciate it. Thank you.
    Ms. Velazquez. Thank you.
    The Chairman. Natural Resources. We will be extremely brief 
because Mr. Rahall and Mr. Hastings--you are the last 
committee. We have nothing left. So nothing left to give but 
our sympathies. Thank you for appearing here today, Chairman 
Rahall and Ranking Member Hastings. We look forward to your 
testimony, and you may begin your presentation.

 STATEMENT OF THE HON. NICK J. RAHALL II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman.
    The Chairman. You are welcome.
    Mr. Rahall. Chairman Brady, Ranking Member Lungren, members 
of the Committee, I do appreciate the opportunity to present to 
you on behalf of myself and our ranking member on the Natural 
Resources Committee, Doc Hastings, our committee's budget for 
the 111th Congress.
    The amount we are requesting represents a 4.8 percent 
increase in 2009 over the committee's budget for the second 
session of the 110th Congress with an additional 5 percent 
increase for 2010. We believe this small increase is 
justifiable in light of the aggressive schedule of hearings the 
committee intends to conduct, including in the field.
    For instance, our committee has jurisdiction over issues 
affecting Native Americans and the U.S. territorial 
possessions. In this regard the Native American population 
continues to be one of the most underserved in this Nation, and 
many tribes remain impoverished. Likewise, the Territories face 
their own set of issues, from political self-determination in 
Puerto Rico to the massive military buildup in Guam. It is our 
intention to bring the committee out to Indian Country and to 
our Territories so that we can see and hear firsthand the 
problems they face.
    A brief review of the committee's oversight plan that was 
submitted with our budget proposal will also give you an idea 
of the other pressing issues the committee intends to address 
both through oversight and legislation. The increases we are 
proposing reflect the increased cost of vendor services, such 
as Web site development and Web hosting services, and we expect 
an increase in the cost of supplies, materials, and equipment 
in the latter half of the Congress and an increase in the cost 
of wireless telecommunications services and related equipment.
    We have also requested a small cost of living adjustment 
for our staff, many of whom have dedicated their careers to 
public service. The committee is allocated 69 staffers in 
total. Of that number 40 serve in the majority, 20 serve the 
minority and 9 are shared employees, staffers such as system 
administrators, the chief clerk, and the chief financial 
officer. In this regard one-third of the salary budget is 
controlled by the minority.
    The remainder of the budget, items such as travel and 
supplies, is treated openly. By this I mean there is no 
distinction or prejudice between the majority and the minority. 
Computers, copiers, and other equipment are repaired or 
replaced as needed without regard to whether it is a Democrat 
or Republican staffer using it. The same applies with travel.
    Thank you again for giving me this opportunity, Mr. 
Chairman and Ranking Member Lungren, to present our proposed 
budget.
    [The statement of Mr. Rahall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Mr. Hastings.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Chairman Brady and Ranking Member 
Lungren, and members of the committee. I thank you for allowing 
me the opportunity to testify today. This is my first 
appearance as a ranking Republican on the Natural Resources 
Committee and my first opportunity to work closely with 
Chairman Rahall. However, it is not my first time in testifying 
before the House Administration and seeking funds as a chairman 
or ranking member. But you probably are not surprised that I 
much more like this position than coming here testifying as a 
ranking member and chairman of the Ethics Committee as I did in 
the past.
    The Chairman. We have our own right here.
    Mr. Hastings. I don't remember if we had bad memories of 
you or not. I don't recall.
    Recognizing that Chairman Rahall and I are the last pair, 
at least we understand we are the last pair to testify today, I 
will keep my remarks very, very brief.
    First, the budget submission you have received very clearly 
allocates two-thirds of staff salary funds to the majority and 
fully one-third to the minority.
    Second, the submission reflects my request to Chairman 
Rahall to update the minority's Web site and Internet presence. 
Given the critical role that the Internet plays in 
communicating, disseminating information in today's world, I 
think that is a very high priority.
    Finally, although past practice on this committee has not 
been for the minority to directly control one-third funds for 
travel and equipment, it is also my understanding that minority 
requests for equipment upgrades, needed materials and resources 
for travel have always been fully met. I certainly anticipated 
an even-handed administration of these nonsalaried funds in 
this Congress, and I will be working with Chairman Rahall in my 
new position as ranking member to ensure that the one-third 
budget rights of the minority are properly respected.
    So thank you again for the opportunity, and I will be more 
than happy to respond to any questions that you may have.
    [The statement of Mr. Hastings follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. Since you 
spoke, Congressman Hastings, about the fact that you are going 
to upgrade your Web site because we need to communicate better, 
one of the things that we have talked about here is even though 
we are going to authorize a 2-year cycle, then it might be good 
to have committees come back here after a year to report on how 
they are doing and to give us an idea of how their expectations 
have been met with the budget that they had presented to us and 
whether this changed circumstances. And it is also a part of 
increased transparency. And I would hope that both of you would 
fully cooperate with that.
    Mr. Rahall. Fine with me, Mr. Lungren.
    Mr. Hastings. I have no problem with that. I think 
oversight is important when you are talking about the 
institution of Congress. For full disclosure, I am a proponent 
of biennial budgeting for the Congress. And I am glad you maybe 
have taken the first step to lead us to that position because I 
think biennial budgeting for the overall Congress would give us 
frankly more oversight of what our responsibilities are in all 
the standing committees. So I hope this is a precedent. But I 
certainly have no problem coming back and reporting what we 
have done the first year.
    Mr. Rahall. I agree.
    Mr. Lungren. Mr. Chairman, I don't want to put you on the 
spot. Since you have Territories over there, do you know where 
Swains Island is? Do you have any idea where that is?
    Mr. Rahall. No, sir. That is one purpose for our increased 
travel budget. I will find out exactly.
    Mr. Lungren. Here is a little factoid for you. I was doing 
some research on immigration and citizenship status. If you are 
born in American Samoa or Swains Island, not of American 
parents, of people who are residents of those two places you 
are not an American citizen. You are under U.S. law an American 
national, which is a unique type of status that we established 
years ago. As opposed to if you are in Guam, you are an 
American citizen. You can't vote for a Congress person. But if 
you move to the United States you can. So as I was going 
through that, I certainly know where American Samoa is. But I 
have no idea where the Swains Island is. But you might take a 
look at that and help me out next time.
    Mr. Rahall. We will do our best.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I have no questions.
    The Chairman. Mr. Harper.
    Mr. Harper. No questions.
    The Chairman. Thank you all. I thought that maybe you 
thought maybe Nicky was from Swains Island for a minute there.
    Mr. Lungren. Not with that accent.
    The Chairman. Not with that accent. Thank you, all. Thank 
you, Chairman Rahall.
    Mr. Rahall. Thank you, Chairman Brady.
    The Chairman. We have got an answer.
    Ms. Lofgren. Swains Island is an atoll in the Tokelau 
chain, the most northwesterly island administered by American 
Samoa.
    The Chairman. Where are the other places that you mention 
that? That will conclude our hearing. We do have three other 
committees that we need to have come in front of us, Energy and 
Commerce and Ways and Means and the Rules Committee. We will 
check our schedules and make sure that we can get that done to 
expedite this, to get this out of the way. Thank you all.
    This hearing is now adjourned.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
